<html>
<title> - LEVERAGING THE PRIVATE SECTOR TO STRENGTHEN EMERGENCY PREPAREDNESS AND RESPONSE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                     LEVERAGING THE PRIVATE SECTOR
           TO STRENGTHEN EMERGENCY PREPAREDNESS AND RESPONSE

=======================================================================


                                HEARING

                               before the

        SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2007

                               __________

                           Serial No. 110-57

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
48-931                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina         MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

LORETTA SANCHEZ, California          CHARLES W. DENT, Pennsylvania
NORMAN D. DICKS, Washington          MARK E. SOUDER, Indiana
NITA M. LOWEY, New York              MIKE ROGERS, Alabama
ELEANOR HOLMES NORTON, District of   BOBBY JINDAL, Louisiana
Columbia                             DAVID DAVIS, Tennessee
DONNA M. CHRISTENSEN, U.S. Virgin    PETER T. KING, New York (Ex 
Islands                              Officio)
BOB ETHERIDGE, North Carolina
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response:
  Oral Statement.................................................     1
  Prepared Statement.............................................     1
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness and Response:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Donna M. Christensen, a Delegate in Congress from 
  the U.S. Virgin Islands........................................     3

                               Witnesses
                                Panel I

Mr. Marko Bourne, Director of Policy and Program Analysis, 
  Federal Emergency Management Agency:
  Oral Statement.................................................    16
  Prepared Statement.............................................    19
Mr. Alfonso Martinez-Fonts, Jr., Assistant Secretary for the 
  Private Sector Office, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                                Panel II

Mr. Barry Dinvaut, Sr., Dinvaut's Trucking Service Inc.; Member, 
  National Black Chamber of Commerce:
  Oral Statement.................................................    40
  Prepared Statement.............................................    41
Mr. J. Michael Hickey, Vice President, Government Affairs, 
  Verizon; Member, Homeland Security Task Force, U.S. Chamber of 
  Commerce:
  Oral Statement.................................................    27
  Prepared Statement.............................................    30
Mr. John Howard, Senior Vice President and General Counsel, W.W. 
  Grainger, Inc., Chair Coordinating Committee Partnership for 
  Disaster Response Business Roundtable:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37

                                Appendix

Additional Questions and Responses:
  Mr. Marko Bourne Responses.....................................    51
  Mr. J. Michael Hickey Responses................................    55
  Mr. John L. Howard Responses...................................    57


                    LEVERAGING THE PRIVATE SECTOR TO



             STRENGTHEN EMERGENCY PREPAREDNESS AND RESPONSE

                              ----------                              


                        Thursday, July 18, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at10:07 a.m., in 
room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] Presiding.
    Present: Representatives Cuellar, Christensen, and Dent.
    Mr. Cuellar. The Subcommittee on Emergency Communications, 
Preparedness and Response will come to order. The subcommittee 
is meeting today to receive testimony in the heating today 
regarding the ways in which the Department of Homeland Security 
can better utilize the private sector in order to strengthen 
emergency preparedness and response in times of terrorist 
attack, major disaster or other emergency.
    I, just like all my colleagues--today is a very special 
day. We got committee hearings at the same time. I have got two 
other--I have got a markup in Ag, Small Business, I have got to 
go over there for some work that has to be done. So I have to 
go over there.
    And I will--Mr. Dent, I will go ahead and leave Mrs. 
Christensen in charge of the committee. I have a statement, but 
I will go ahead and submit that as part of the record. I will 
be back in about 20 minutes. Again, to all of the members, 
please, I don't like doing this, but one of my other chairwomen 
up there wants a subpoena issued, and I think I am the vote to 
get it over. So I have to go over there, but I will allow Mr. 
Dent to do the opening statement and then at this time I will 
go ahead and let Mrs. Christensen--and I will see you in about 
20 minutes.
    [The information follows:]

 Prepared Opening Statement of the Honorable Henry Cuellar, Chairman, 
  Subcommittee on Emergency Communications, Preparedness, and Response

    Good morning, First, on behalf of the Members of the Subcommittee, 
let me welcome our panel of witnesses who are here to discuss how to 
better respond to and recover from a terrrorist attack, major disaster 
or other emergency through an enhanced partnership between the 
Department of Homeland Security and the private sector.
    We are glad that you all are here today. We look forward to hearing 
from representatives from the private secotr--including both large and 
small companies and associations. We hope to draw upon your experience, 
resources, and best practices to help strengthen emergency preparedness 
and response at the local, State, and Federal levels.
    We also look foreard to hearing from the Department to learn about 
new developments within the Policy and Private Sector Offices to better 
coordinate logistics and communications with the private secotr.
    The priave sector owns approximately 85% of the Nation's critical 
infrastructure and has been working closely with the Department in the 
development of the National Infrastructure Protection Plan. Given its 
role in protecting critical infrastructure, the private sector can 
greatly support our country in times of crisis.
    While the Department has been working to improve its ability to 
coordinate efficiently during disasters, the subcommittee wants to 
ensure that it is truly incorporating best practices to enhance its 
preparedness.
    It is a pleasure to see that the private sector witnesses today are 
also representing associations that should work closely with the 
Department--The U.S. Chamber of Commerce, the National Black Chamber of 
Commerce and the Business Roundtable. all of these groups are able to 
provide valuable insight given its member companies are what drives our 
nation's economy.
    And the committee especially looks forward to hearing from our 
small business witness from New Orleans, whose company was affected by 
Hurricane Katrina. And while the company was recovering, it still 
provided debris removal services through a subcontractual relationship 
with FEMA, and continues to work with the Army Corps of Engineers and 
FEMA to provide recovery services.
    The subcommittee wants to hear what the Department is doing to 
address the following areas that are important to the response and 
recovery process: logistics, donation management, credentialing of 
private sector officials and standards to create business continuity in 
the private sector.
    By strengthening public and private partnerships we can assure our 
communities that emergency preparedness and response at the local, 
State, and federal levels will be efficient and effective when a major 
disaster, terrorist attack, or other emergency takes place.
    I want to thank the witnesses again for their testimony.

    Mr. Dent. Well, thank you, Mr. Chairman, and good luck in 
your meeting. This is a busy day, too. In fact we have a 
conference committee meeting on the 9/11 Commission 
recommendations bill, which I shall be part of later today as a 
conferee. So this is an extraordinary day.
    First, thank you, Mr. Chairman. I want to thank the 
witnesses for being here today with us.
    As we discussed in other subcommittee hearings, the job of 
preparing the Nation to respond to emergencies--be it a 
terrorist attack or some type of a natural disaster--cannot be 
done by the Federal Government alone. It must be a 
collaborative effort across all levels of government and it 
must include the private sector. The private sector controls 85 
percent of the Nation's critical infrastructure. It certainly 
drives the economy. Given its importance, all levels of 
government should work to leverage the tremendous resources and 
expertise that the private sector possesses. This will help 
ensure a more efficient and effective response to emergencies, 
as well as facilitate recovery efforts.
    At the Department of Homeland Security, both the Private 
Sctor Office and FEMA engage regularly with the private sector 
to improve logistics management, promote continuity of 
operations planning, and improve individual and community 
prepare preparedness. It is my understanding that several new 
initiatives are underway at FEMA to increase the participation 
of the private sector.
    For instance, FEMA will soon be launching a new Loaned 
Executive Program through which a member of the business 
community will be placed within FEMA's Policy Office to assist 
in logistics management. I look forward to discussing this 
initiative and other ideas the witnesses may have to further 
improve coordination and leverage the resources and expertise 
of the business community.
    Again, I want to thank the witnesses for being here. At 
this time I want to yield back to the Chair. Thank you.
    [The information follows:]

   Prepared Statement of the Honorable Charles Dent, Ranking Member, 
  Subcommittee on Emergency Communications, Preparedness, and Response

    As we've discussed in other subcommittee hearings, the job of 
preparing the nation to respond to emergencies--be it a terrorist 
attack or a natural disaster--cannot be done by the Federal government 
alone.
    It must be a collaborative effort across all levels of government 
and must include the private sector.
    The private sector controls 85 percent of the nation's critical 
infrastructure and drives the economy. Given its importance, all levels 
of government should work to leverage the tremendous resources and 
expertise that the private sector possesses.
    This will help ensure a more efficient and effective response to 
emergencies, as well as facilitate recovery efforts.
    At the department of Homeland Security, both the Private Sector 
Office and FEMA engage regularly with the private sector to improve 
logistics management, promote continuity of operations planning, and 
improve individual and community preparedness.
    It is my understanding that several new initiatives are under way 
at FEMA to increase the participation of the private sector.
    For instance, FEMA will soon be launching a new ``Loaned 
Executive'' program, through which a member of the business community 
will be placed within FEMA's Policy Office to assist in logistics 
management.
    I look forward to discussing this initiative and other ideas our 
witnesses may have to further improve coordination and leverage the 
resources and expertise of the business community.
    Again, I thank the witness for being here.
    Thank you, Mr. Chairman.

    Mrs. Christensen. [Presiding.] Thank you, Mr. Dent. We have 
no other members, but we will accept their opening statements 
for the record should they join us.
    I want to welcome our panel of witnesses. Our first witness 
is Mr. Alfonso Martinez-Fonts, Jr., who is the Assistant 
Secretary for the Private Sector Office within the Department 
of Homeland Security. Mr. Martinez-Fonts, Jr. was appointed to 
this position in November 2005. Prior to that he served as a 
Special Assistant to the Secretary for the Private Sector in 
the Department. He has extensive experience in the private 
sector, having worked 30 years in the banking industry.
    Our second witness, Mr. Marko Bourne, is the Director of 
Policy and Program Analysis for the Federal Emergency 
Management Agency within the Department of Homeland Security. 
Mr. Bourne was appointed to this position in October of 2006. 
He has more than 20 years of experience in governmental and 
legislative affairs, public affairs emergency services, and 
emergency management fields.
    Our third witness is Mr. J. Michael Hickey who is the Vice 
President of Government Affairs and National Security Policy 
for Verizon, a position he has held for the past 3 years. He 
previously served as the State president of Verizon New 
Hampshire and has extensive experience in both the private and 
public sectors. Mr. Hickey is also a member of the U.S. Chamber 
of Commerce Homeland Security Task Force.
    Our fourth witness is Mr. John Howard who is the Senior 
Vice President and General Counsel of W.W. Grainger, Inc. Mr. 
Howard has been serving in this capacity since 2000. He is a 
member of the Business Roundtable's Partnership for Disaster 
Response, and Mr. Howard also has extensive experience with the 
Federal Government and the private sector.
    Our fifth witness is Mr. Barry Dinvaut, Sr., who is the CEO 
of Dinvaut's Trucking Service, Incorporated. Mr. Dinvaut, Sr. 
has been the CEO for 30 years and has 10 years of banking 
experience. His company is also a member of the National Black 
Chamber of Commerce, and we are pleased to have all of you 
present today.
    Without objection, the witnesses' full statements will be 
inserted into the record. And I now ask each witness to 
summarize his statement for 5-minutes, beginning with Assistant 
Secretary Martinez-Fonts, Jr..

 STATEMENT OF ALFONSO MARTINEZ-FONTS, JR., ASSISTANT SECRETARY 
 FOR THE PRIVATE SECTOR OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Martinez-Fonts. Good morning, Madam Chair, and thank 
you members of the committee. I want to thank you very much for 
the opportunity to speak before you today.
    I am Al Martinez-Fonts, Jr., Assistant Secretary for the 
private sector at the U.S. Department of Homeland Security. 
With my remarks before you today, I would like to give you some 
background about the statutory mandates of the Department of 
Homeland Security Private Sector Office.
    I will also talk briefly about the benefits of 
collaboration and challenges of partnership building, and then 
I would like to conclude by illustrating how we in DHS 
components leverage the private sector in areas of emergency 
preparedness and response.
    To begin, let me introduce you to the unique function of 
the DHS Private Sector Office. As a part of the 2002 Homeland 
Security Act, specifically Title I, section 102(f), Congress 
created the position of Special Assistant to the Secretary for 
the Private Sector. Comprised of a staff of 14 employees, the 
Private Sector Office executes outreach, research and analysis, 
based on its statutory mandates to communicate, engage, and 
cultivate partnership building with the private sector.
    We also act as an advocate when we advise the Secretary on 
the impact of DHS policies, regulations, processes, actions, 
and their impacts on the private sector.
    There are 30 million businesses in the United States. It 
would be impossible to reach all of the private sector if it 
weren't for partnerships. Simply put, without partners we can't 
do our job. On a daily basis my office works with local 
chambers of commerce and trade associations like the U.S. 
Chamber of Commerce, the Business Roundtable, National 
Association of Manufacturers, National Federation of 
Independent Businesses, Association of Industrial Security, 
International Business Executives for National Security, and 
hundreds of other associations, individual businesses, 
nongovernmental organizations and academic institutions, to 
foster dialogue and create opportunity for the Department's 
mission.
    To begin, we believe that when the private sector and the 
government work together, they can share in the benefits of 
collaboration. Public-private partnerships enhance our Nation's 
ability to prepare for, respond to, recover from, and mitigate 
against acts of terrorism and natural disaster. Ranging from 
individual businesses to nongovernmental organizations, 
partnerships can exchange information, facilitate dialogue, or 
focus on a particular set of issues.
    Partnerships, as the term implies, also have 
characteristics which can lend to their success. We believe 
that a defined mutual goal, a champion on either side of the 
partnership, and a business case for action aids in the ability 
for a partnership to take root and grow.
    However, we recognize that there are challenges to 
partnership building, especially between the private sector and 
government.
    First, we encourage businesses to be prepared. We support 
business continuity standards as a framework for businesses, 
especially small businesses, to start a business emergency 
plan, to engage their employees and to protect their assets. 
For example, NFBA 1600 is the National Standard for Business 
Continuity, as developed by the NFCA and endorsed by the 
American National Standards Institute, the 9/11 Commission, and 
the U.S. Department of Homeland Security.
    We also work with other associations and organizations, 
like the American Society for Industrial Security to encourage 
the use of business preparedness standards and best practices. 
An example of this adoption was the creation of Ready Business. 
In 2004, we launched Ready Business to encourage business 
owners and business managers to plan to, one, stay in business; 
two, talk to their employees; and three, protect their 
investments.
    To complement their outreach at the local level, Ready 
Business launched the Ready Business Mentoring Initiative to 
assist business and community leaders in hosting and delivering 
business preparedness workshops.
    Second, we support efforts made by State and local 
governments to engage the private sector. This past May, my 
staff worked with the city of Charlotte and the Charlotte 
Chamber of Commerce to design and develop the Charlotte 
Business Preparedness Summit.
    As a result of this pilot, we are working with the Ready 
campaign to create a toolkit to encourage State and local 
governments to build their relationships and work with the 
private sector.
    Third, we support business outreach, business awareness 
outreach. For example, we promoted the Department's largest 
preparedness initiative, National Preparedness Month, to be 
held this September, as it has been in the past couple of 
years. On a daily basis, we work with our colleague in the 
Office of Infrastructure Protection who coordinates and 
facilitates the sector coordinating councils of the private 
sector organizations which represent the 17 critical 
infrastructures and key resources. In fact today, these 
councils are hosting, for their very first time, the meeting of 
the Critical Infrastructure and Partnership Advisory Council as 
we speak. This council serves as a forum for the government and 
the private sector security partners to share information and 
develop means to protect against natural disasters or 
terrorism.
    In yet another example, we have helped FEMA incorporate the 
private sector expertise into its operations by creating the 
FEMA Loan Business Executive Program. This initiative will 
bring seasoned experts from the private sector into FEMA 
operations to serve as advisors and collaborators on missions 
of critical programs such as logistics, credentialing and 
incidence response. Governments are always looking for better 
ways to leverage the private sector in emergency response and, 
as mentioned earlier, there are challenges in doing this.
    For example, FEMA has now created prenegotiated contracts 
for emergency services to be able to expedite the procurement 
process and deliver goods and services to an affected area 
quickly. Through programs like this, FEMA is leveraging many of 
the business practices that the private sector has to offer. 
While we understand that many private-sector companies wish to 
sell solicited goods and services, we also believe that there 
are many people that just want to do something.
    We saw this clearly during the 2004 hurricane season when 
companies from around the world offered unsolicited services. 
After that event, the Private Sector Office created NERR, the 
National Emergency Response Registry. We quickly found out 
during Katrina that NERR was unable to manage the flood of 
unsolicited offers of goods and services. To replace NERR and 
address the need for a robust donation management system during 
a crisis, FEMA reached out to Aidmatrix, a nonprofit 
organization who, through a grant from FEMA, created a virtual 
superhighway for all levels of government, the private sector 
and nonprofits, to connect and share unsolicited offers of 
products and services and volunteers for crisis management and 
everyday mission support.
    There are countless examples that I could give you but what 
I will say in conclusion is partnerships could be a vital key 
in leveraging the private sector in emergency preparedness and 
response. Recognizing that partnerships are not a means to 
shift the public burden away from the government, a partnership 
in its true state, where both partners contribute their core 
skills and services, is a joint effort. By creating this 
collaborative environment we can create opportunities for 
relationship building and information sharing which in turn may 
create better communication, trust, and collaboration between 
the government and the private sector. This type of cooperation 
can only enhance our Nation's ability to better prevent, 
protect against, respond to, and recover from an act of 
terrorism or a natural disaster.
    This concludes my prepared remarks and I look forward to 
answering any questions that you may have.
    Mrs. Christensen. Thank you. Thank you, Secretary Martinez-
Fonts, Jr..
    [The statement of Mr. Martinez-Fonts, Jr. follows:]

           Prepared Statement of Alfonso Martinez-Fonts, Jr.

Introduction
    Chairman Cuellar and Members of the Committee.
    Thank you for the opportunity to respond to the committee's request 
for information on how the Department of Homeland Security (DHS) 
leverages the private sector to strengthen emergency preparedness and 
response. I am Al Martinez-Fonts Jr., Assistant Secretary for the 
Private Sector within the Office of Policy at the Department of 
Homeland Security, and I am pleased to respond to the Committee's 
request for information about public-private cooperation in emergency 
preparedness and response.
    In order to adequately inform the Committee and respond to its 
request we are providing information about the Private Sector Office 
itself, which is a unique creation in the Executive Branch; various 
characteristics, requirements and experience with public private 
partnerships; specific information about Private Sector Office 
activities in support of public-private cooperation in emergency 
preparedness, response and recovery; and examples of activities by 
several other components of the Department, excluding in part, FEMA, 
which is represented here today.

    Part I_The Private Sector Office
    The U.S. Department of Homeland Security's Private Sector Office 
(PSO) is an outgrowth of the position of Special Assistant to the 
Secretary, created in Title I, Section 102(f) of the Homeland Security 
Act. The Special Assistant was given seven enumerated tasks designed to 
promote cooperation between the Department and the private sector. The 
Private Sector Office was created as a result of requests made to 
Congress by major business associations who recognized that more 
cooperation between the Department and the private sector was necessary 
to maintain a healthy economy while enhancing our nation's homeland 
security efforts. The Intelligence Reform and Terrorism Prevention Act 
of 2004 added three more tasks to the original seven in the Homeland 
Security Act.
    In condensed form, the statutory mandates for PSO are to:
        <bullet> Create and foster strategic communications with the 
        private sector;
        <bullet> Advise the Secretary on the impact of Department's 
        policies, regulations, processes and actions on the private 
        sector;
        <bullet> Interface with Federal agencies performing homeland 
        security missions to assess their impact on the private sector;
        <bullet> Create and manage Private Sector Advisory Councils;
        <bullet> Work with Federal labs, research and development 
        centers, academia to develop innovative approaches and 
        technology;
        <bullet> Promote public-private partnerships to provide 
        collaboration and mutual support;
        <bullet> Develop and promote private sector best practices to 
        secure critical infrastructure;
        <bullet> Coordinate industry efforts regarding DHS functions to 
        identify private sector resources that could be effective in 
        supplementing government efforts to prevent or respond to a 
        terrorist attack or natural disaster; and
        <bullet> Consult with various DHS components and the Department 
        of Commerce on matters of concern to the private sector.
    In order to carry out our mission it is essential that we have 
partners. Our principal partners are the trade associations and the 
Chambers of Commerce to which the thirty million businesses in America 
belong. Without them, we cannot do our job. These associations and 
Chambers of Commerce include the U.S. Chamber of Commerce, Business 
Roundtable (BRT), National Association of Manufacturers (NAM), National 
Federation of Independent Businesses (NFIB), Association Society of 
Industrial Security (ASIS), Business Executives for National Security 
(BENS) and hundreds of others.
    To work with our partners, the Private Sector Office has evolved 
into a staff of fourteen Federal personnel, with additional contract 
staff support. The Private Sector Office is now part of the Policy 
Office where it is better able to satisfy its statutory mandate.
    The Private Sector Office has two divisions: the Business Liaison 
Division and the Economic Analysis Division. The Business Liaison 
Division works directly with hundreds of individual businesses, trade 
associations, nonprofits, and other professional and non-governmental 
organizations, ranging from the U.S. Chamber of Commerce and the 
Business Executives for National Security to the American Red Cross. 
The Business Liaisons also work with the Department's components, as 
well as with other Federal agencies, including the Small Business 
Administration, the U.S. Department of Labor, U.S. Department of 
Commerce and the U.S. Department of Health and Human Services.

    The roles and examples of activities of the Business Liaison 
Division include:
    Obtaining information from the private sector to advise senior 
leadership and the policy development process by:
        <bullet> Conducting preparedness efforts, infrastructure 
        protection outreach and education;
        <bullet> Facilitating immigration issues/TWP outreach work;
        <bullet> Encouraging Work Place Enforcement sessions and 
        discussion;
        <bullet> Facilitating Safety Act listening sessions with 
        industry;
        <bullet> Providing situational awareness to current and 
        emerging issues (i.e., effects of regulation on the chemical 
        industry, travel industry impacts of WHTI, effects of 
        immigration legislation on U.S. employers);
        <bullet> Contributing to numerous Department initiatives (i.e., 
        non-immigrant visas/Rice Chertoff Initiative, etc.); and
        <bullet> Pandemic preparedness seminars with HHS/CDC.

Creating and fostering strategic communications with the private sector 
by:
        <bullet> Creating and sustaining relationships with U.S. 
        Chamber of Commerce, Business Roundtable, National Association 
        of Manufacturers, Business Executives for National Security, 
        National Federation of Independent Business, American Society 
        for Industrial Security (ASIS), as well as many Critical 
        Infrastructure/Key Resource (CI/KR) and non-CI/KR associations;
        <bullet> Facilitating discussions and relationships with major 
        corporate leaders (i.e. Wal-Mart, Home Depot, General Electric, 
        financial services sector leaders, etc.);
        <bullet> Conducting topic-focused roundtables for the 
        Department to receive insight and awareness from private sector 
        leaders (large and small businesses, associations/NGOs); and
        <bullet> Participating in the process of delivering government 
        information (threat response, mitigation, etc.) to the private 
        sector.

Promoting DHS policies to the private sector by:
        <bullet> Delivering speeches and presentations to various 
        groups and constituencies communicating Homeland Security 
        policies, actions and initiatives; and
        <bullet> Working with DHS leadership, the DHS Office of Public 
        Affairs and other DHS components to shape and target 
        communications and provide strategic engagement of private 
        sector leaders and key constituencies.

Supporting outreach to the private sector by DHS components by:
        <bullet> Aiding rollouts and operations (e.g., US VISIT, 
        National Response Plan (NRP), National Infrastructure 
        Protection Plan (NIPP), etc.);
        <bullet> Facilitating private sector member/association 
        involvement in national and regional preparedness exercises 
        (e.g. TOPOFF 4);
        <bullet> Participating in incident communications and 
        operations during an event of national significance. For 
        example, coordinates staff forward to the Joint Field Office, 
        ESF 15 (External Relations) operations; and private sector 
        assistance to FEMA (i.e. establishing networks/relationships, 
        large donations);
        <bullet> Obtaining private sector inputs to DHS Strategic Plan, 
        NRP, NIPP and similar products; and
        <bullet> Contributing to improved Border crossing operations 
        (i.e., 25% Challenge in Detroit, Mariposa Port of Entry, 
        Nogales, AZ).

Facilitating and encouraging public private partnerships by:
        <bullet> Working with the Ready Campaign, specifically Ready 
        Business, to encourage owners and operators of small to medium 
        sized businesses to create a business emergency plan, to talk 
        to their employees and to take steps to protect their assets; 
        and
        <bullet> Coordinating with State and local business coalitions 
        such as Pacific North West Economic Region (PNWER), Great Lakes 
        Partnership (Chicago); Security Network (San Diego); Pittsburgh 
        Regional Coalition for Homeland Security, Washington Board of 
        Trade, ChicagoFIRST, State and regional BENS affiliates, 
        Bankers and Brokers Roundtable, Hispanic Chamber of Commerce.

Encouraging the commitment of private sector resources to homeland 
security activities by:
        <bullet> Promoting business continuity and supply chain 
        security and resilience; and
        <bullet> Encouraging coordination/integration of cyber and 
        physical security.
The Private Sector Economic Analysis Division works with the Policy 
Office, other DHS components, other Government agencies, and external 
organizations to obtain information and analyze issues. More 
specifically, its roles and actions include the following:

Providing economic analyses of current or proposed Homeland Security 
actions, rules and regulations to offer component agencies and senior 
leadership with additional insight and perspective by:
        <bullet> Assessing the consequences of cyber attacks;
        <bullet> Evaluating Pandemic Influenza efforts;
        <bullet> Conducting air traveler customer surveys;
        <bullet> Reviewing U.S. VISIT survey/analysis;
        <bullet> Assisting U.S. Citizenship and Immigration Service 
        (USCIS) in developing proof of concept analysis for their 
        Transformation Project; and
        <bullet> Coauthoring Risk Assessment of Collecting Antidumping 
        Duty and Analysis of CBP Bonding Policy for CBP.

Reviewing regulations, including providing help to regulating agencies 
by:
        <bullet> Assisting the Transportation Security Administration 
        (TSA) in the completion of various rulemakings and their 
        subsequent rollouts (i.e., REAL ID, APIS, ADIZ, trucking 
        hazardous materials);
        <bullet> Providing comments and assisting USCIS on completing 
        the proposed rule on the Religious Worker Visa Program; and
        <bullet> Working with USCIS, ICE and the Chief Procurement 
        Officer on estimating the costs of various components of the 
        IMAGE (ICE Mutual Agreement between Government and Employers) 
        programs.

Part II_Public-Private Partnerships
    This section identifies the types of participants, some of the 
roles and purposes of partnerships, the requirements for successful 
partnerships, the risks that may hinder their success, major 
variability in results, and examples of public-private partnerships at 
the Department of Homeland Security.
    The public-private partnership model is quite different from the 
traditional government relationship which treats the private sector as 
more of a supplier or customer. ``Partnership'' requires a different 
mental attitude for all participants. It implies ``give and take,'' not 
a ``take it or leave it'' philosophy. Both the government and the 
private sector partners have constraints (e.g. legislative, 
contractual, financial, or staffing), which limit their ability to 
agree on actions. However, the expectation is that neither the public 
nor the private sector will ``win every argument'' and, instead, will 
work collaboratively to achieve mutually beneficial goals.

Stakeholders of Public Private Partnerships
    There are many possible participants in public-private 
partnerships. The public sector participants could be agencies from one 
or more levels of government: Federal, State or local. In most cases, 
the government participants do not involve their senior agency 
official. The private sector participants in a partnership can include 
individual businesses, trade associations, civic organizations, 
nonprofits and non-governmental organizations like the American Red 
Cross.

    The Purpose of Public Private Partnerships
    Public private partnerships have many potential roles and purposes. 
Some are focused on preventing terrorism while others combine 
protection and preparedness actions, to include both acts of terrorism 
and natural disasters. Still others may focus only on natural disasters 
but their results can be transferable in either case. Public-private 
partnerships may have one or more of the following purposes, some of 
which can overlap:
        <bullet> For Federal, State or local governments to provide and 
        receive information related to acts of terrorism and natural 
        disasters;
        <bullet> For private sector organizations to learn, understand, 
        and influence prospective decisions by governments regarding 
        prevention, protection and preparedness relative to acts of 
        terrorism and natural disasters;
        <bullet> For governments responding to a disaster, to encourage 
        cooperation with the private sector, who may be able to provide 
        donations of goods or services, restore utilities or essential 
        services to pre-disaster status, or work to reduce the impact 
        of a disaster;
        <bullet> For governments to obtain economic information useful 
        in aiding in its recovery, evaluating disasters and reducing 
        potential impact of mitigation decisions;
        <bullet> For private sector organizations to mobilize with 
        government to address disaster related issues which are 
        critical to the private sector; and
        <bullet> To solve security and expedited movement of people and 
        goods across our borders.

Characteristics of Public Private Partnerships
    Most public-private partnerships are not created under a specific 
legislative mandate. However, there are several characteristics of 
building a partnership which could be characterized as ``requirements'' 
in order for that partnership to be successful. Some are addressed in 
written documents, but many are not. They include:
        <bullet> A charter with agreed scope for work and 
        collaboration; success requires clear mutual goals defined 
        before the partnership begins;
        <bullet> Agreed commitments to and expectations of the 
        partnership, including staffing and budget required of each 
        party;
        <bullet> A designated leader from the government and one from 
        the private sector, who can address any issues which may arise;
        <bullet> Public-private partnerships can be initiated by the 
        private sector or the government, although most are initiated 
        by the government. Many times the government, initially, 
        persuades one or more key private sector partners to join the 
        effort who then in turn help recruit other private sector 
        members. In order to persuade the private sector to 
        participate, there needs to be a ``business case'', or ``value 
        proposition'';
        <bullet> Compatibility between the partnership's purposes and 
        the mission and goals of government agency and private sector 
        partners is essential; and
        <bullet> Individuals in both the government and the private 
        sector who are ``champions'' or ``promoters'' for the 
        partnership are very important, particularly where the 
        ``business case'' is not very strong.

Challenges to Successful Implementation of Public-Private Partnerships
    Public-private partnerships are vulnerable to risks and challenges 
which can lead to their termination or change of course. Some risks can 
be addressed; others cannot. The risks may include:
        <bullet> Concern by the private sector regarding potential 
        liabilities associated with sharing information with 
        governments, and for voluntary actions taken to assist in 
        recovery from disasters. Many businesses would like to 
        collaborate, but are deterred by real or perceived liability 
        issues. ;
        <bullet> The ability of businesses and organizations to assist. 
        Many businesses and organizations that have the capacity and 
        resources to make a significant impact on emergency 
        preparedness, response, and recovery are often suppliers of 
        goods and services, therefore creating a potential conflict of 
        interest;
        <bullet> Changing priorities of the government or private 
        sector partners, which may lead to a reduction in commitments 
        and/or expectations on either side;
        <bullet> Loss of a ``champion'' or ``promoter'';
        <bullet> The proliferation of partnership organizations, which 
        can involve the same private sector or government 
        organizations, may lead to confusion, conflict or ``partnership 
        exhaustion'';
        <bullet> Mishandling or inappropriate sharing of information by 
        either government or private parties may lead to a loss of 
        trust and credibility;
        <bullet> Perception of favoritism toward individual firms by 
        the government if the partnership excludes their competitors; 
        and
        <bullet> Understanding the level of participation. Unless the 
        ``business case'' for participation is understood at the 
        beginning of the public-private partnership, it may not survive 
        long.

Variability Among Public Private Partnerships
    There is no single model of public private partnership that 
supports the prevention, protection against, or preparedness for 
natural disasters or terrorist actions. Some of the variations between 
partnerships include:
        <bullet> Whether a particular partnership should be continuing, 
        or ad hoc for a specific disaster or issue;
        <bullet> Level of involvement of local, State, or national 
        level or a combination of one or more levels; and
        <bullet> Number of participants and budget, which can range 
        from few and no allocated budget to hundreds and annual budgets 
        measured in thousands of dollars.

Results and Impacts from Public Private Partnerships
    Over 85% of the critical infrastructure and key resources in the 
United States are owned or operated by the private sector. Federal, 
State and local governments in the United States are neither authorized 
by law nor have the funds to provide comprehensive protection to each 
critical infrastructure asset. Thus unless the private sector takes 
actions to prevent, protect against, respond to, and recover from an 
act of terrorism or natural disaster, the country will be poorly 
prepared to deal with these possibilities.
    While the private sector can do so on their own, greater impact 
occurs when they collaborate through public-private partnerships. Many 
partnerships have been created in the past five years and few have been 
terminated, a sure sign of progress which has helped to further enhance 
the information sharing, preparedness, and protective actions necessary 
to help ensure the security of the Nation.
    Almost every review of the United States' efforts to prepare to 
prevent, protect against, respond to, and recover from terrorist or 
natural disasters urges the continuation and increase in public private 
partnerships to achieve that end. Although there are no available 
statistics on numbers or results of public-private partnerships, the 
fact that there is still willingness and desire by both the private 
sector and governments to create such arrangements is a strong 
indication that the results and impacts of those partnerships have been 
very positive.

    Successes of Public-Private Partnerships
    Public-private partnerships directly or indirectly help to address 
preparedness/consequence management issues and protect critical 
infrastructure.

Examples of Public-private partnerships at the Department:
        <bullet> The Office of Infrastructure Protection coordinates 
        and facilitates Sector Coordinating Councils of private sector 
        organizations representing each of the 17 Critical 
        Infrastructure/Key Resource Sectors. These councils work with 
        government agencies through the Critical Infrastructure 
        Partnership Advisory Council to share information and develop 
        means of preventing, protecting against and preparing for 
        terrorist disasters.
          In addition, the Office of Infrastructure Protection 
        coordinates the National Infrastructure Advisory Council (NIAC) 
        which provides the President through the Secretary of Homeland 
        Security with advice on the security of the critical 
        infrastructure sectors and their information systems. The NIAC 
        is composed of a maximum of 30 members, appointed by the 
        President from private industry, academia, and State and local 
        government.

        <bullet> The Office of Intelligence and Analysis officials work 
        with State and local authorities at fusion centers across the 
        country to facilitate the two-way flow of timely, accurate, and 
        actionable information on all types of hazards. In Washington 
        State, for example, representatives from the private sector sit 
        side-by-side with government.
          Fusion centers provide critical sources of unique law 
        enforcement and threat information; facilitate sharing 
        information across jurisdictions and function and provide a 
        conduit between men and women on the ground protecting their 
        local communities and State and Federal agencies. The 
        Department will have tailored multi-disciplinary teams of 
        intelligence and operational professionals in fusion centers 
        nationwide by the end of fiscal year 2008.

        <bullet> The Homeland Security Advisory Council (HSAC) provides 
        advice and recommendations to the Secretary on matters related 
        to homeland security. The HSAC is comprised of leaders from 
        State and local government, first responder communities, the 
        private sector, and academia. In 2007, the HSAC Private Sector 
        Work Group created ``The Future of Terrorism Task Force 
        Report'' and the ``Homeland Security Culture Report''.
        <bullet> The Science and Technology Directorate facilitated the 
        establishment of the Homeland Security Science and Technology 
        Advisory Committee. This was established in 2004 to serve as a 
        source of independent, scientific and technical planning advice 
        to the Under Secretary for Science and Technology as mandated 
        by the Homeland Security Act of 2002.

        <bullet> The National Communications System (NCS) has had an 
        active partnership with the telecommunications industry since 
        its inception in 1962. NCS coordinates the National Security 
        Telecommunications Advisory Committee of 30 industry 
        executives, which advises national leadership on exercise of 
        telecommunications functions and responsibilities. They are 
        also responsible for coordinating the planning and provision of 
        national security and emergency preparedness communications for 
        the Federal government under all circumstances, including 
        crisis or emergency, attack and recovery, and reconstitution.
          The National Security Information Exchange (NSIE) process was 
        established as a forum in which government and industry could 
        share information in a trusted and confidential environment to 
        reduce the vulnerability of the Nation's telecommunications 
        systems to electronic intrusion. The NSIE process continues to 
        function today, demonstrating that industry and government will 
        share sensitive security information if they find value in 
        doing so.

        <bullet> The Transportation Security Administration (TSA) 
        regularly works with key air transport organizations. In the 
        event of a disaster, TSA works with these organizations to 
        assist in the disaster response efforts. For example, during 
        Hurricane Katrina, TSA, through its ongoing relationship with 
        the Air Transport Association (ATA), facilitated air 
        transportation from ATA member airlines to over 20,000 disaster 
        victims.

        <bullet> The Office of Cyber Security and Communications 
        (CS&C), is working in partnership with the Office of 
        Infrastructure Protection, Sector-Specific Agencies, and 
        public- and private--sector security partners, and is committed 
        to preventing, protecting against, responding to, and 
        recovering from cyber attacks and their consequences. CS&C's 
        strategic goals include preparing for and deterring 
        catastrophic incidents by achieving a collaborative risk 
        management and deterrence capability with a mature information 
        sharing partnership between government and the private sector. 
        This strategic goal also encompasses tactical efforts to secure 
        and protect the Nation's cyber and communications 
        infrastructures from attacks and disasters by identifying 
        threats, vulnerabilities, and consequences.
    A number of initiatives are currently under way to identify 
vulnerabilities to the Nation's critical infrastructure, assess their 
potential impact, and determine appropriate mitigation strategies and 
techniques. CS&C supports the management of risk to the information 
technology and communications sectors' critical functions and 
infrastructures that support homeland, economic, and national security; 
it works to reduce the likelihood of success and severity of impact of 
a cyber attack against critical infrastructure control systems; detects 
and analyze cyber attacks; and facilitates the identification of 
systemic risks across the Nation's CI/KR sectors.
    The Private Sector Office staff is assigned a portfolio which 
covers many of our largest components such as Customs and Border 
Protection, Immigration and Customs Enforcement, the Transportation 
Security Administration and the Federal Emergency Management Agency. 
The Private Sector Office often acts as a catalyst with Department 
components to cultivate and foster their own public-private 
partnerships.

Part III_Strengthening Emergency Preparedness and Response through 
Public-Private Partnerships
    The concept of leveraging public-private partnerships to strengthen 
emergency preparedness and response is gaining momentum every day. 
There is a movement on the part of both government and the private 
sector to form partnerships to better prepare and respond to crises. We 
see a tremendous opportunity for the private sector to be a vital 
partner in preparing communities, offering support in disaster response 
and being part of the solution during long term recovery.

    Leveraging Partnerships in Emergency Preparedness
    We believe that members of the private sector can be strong 
partners in preparing their communities for disaster. Companies that 
prepare their own operations, employees, and assets for an emergency 
are an important part of their community's preparedness efforts. In 
addition to taking part in the preparedness, planning and exercise 
process, all companies large and small can share their practices and 
become preparedness ambassadors in their communities. We use all of the 
Department's available resources and reach out through our partnerships 
to encourage emergency preparedness.

    Adoption of the Preparedness and Business Continuity Standard - the 
NFPA 1600
    PSO and the Department supports the active use and outreach of 
programs based on the Preparedness and Business Continuity Standard 
NFPA 1600 as developed by the National Fire Protection Association and 
endorsed by the American National Standards Institute and the 9/11 
Commission.
    A successful example of this adoption is Ready Business. In 2004, 
the U.S. Department of Homeland Security's Ready Campaign and the 
Advertising Council launched Ready Business, an extension of its 
successful campaign to educate Americans about what they need to do to 
prepare for emergencies. Based on the principles of NFPA 1600, Ready 
Business was developed by the Department and launched in partnership 
with the U.S. Chamber of Commerce, the Small Business Administration, 
the Society of Human Resource Management, The Business Roundtable, The 
9/11 Public Discourse Project, ASIS International, Business Executives 
for National Security, the International Safety Equipment Association, 
the International Security Management Association, the National 
Association of Manufacturers, the National Federation of Independent 
Businesses, and the Occupational Safety and Health Administration.
    The goal of Ready Business is to raise the business community's 
awareness of the need for emergency planning and motivate businesses to 
take action. The campaign encourages business owners and managers to 
plan to stay in business, talk to their employees, and protect their 
investment.
    The campaign's messages are delivered through television, radio, 
print, outdoor and Internet public service advertisements (PSAs) 
developed and produced by the Advertising Council, as well as through 
brochures, the www.ready.gov and www.listo.gov Web sites, the toll-free 
phone lines 1-800-BE-READY and 1-888-SE-LISTO, and partnerships with a 
wide variety of public and private sector organizations.
    Ready Business also has a Spanish language companion, Listo 
Negocios, which provides several Ready Business tools and resources 
translated into Spanish.
    In May 2006, the Ready Campaign launched the Ready Business 
Mentoring Initiative. This initiative is designed specifically to help 
owners and managers of small and medium sized businesses prepare for 
emergencies. Materials were created to assist business and community 
leaders in hosting and delivering business preparedness workshops and 
training sessions. These sessions and the Ready Business Mentoring 
Guides outline how businesses can plan to stay in business after an 
emergency, talk to employees, and protect their assets. Workshop 
materials were provided through collaboration through USDA Cooperative 
Extension Service funded Education Disaster Extension Network (EDEN).
    To reach businesses and business organizations across the country, 
the Department reached out to the U.S. Department of Commerce, the 
Small Business Administration, the U.S. Department of Agriculture and 
the nation's leading business organizations to distribute the Ready 
Business Mentoring Guides and access its resources.

State and Local Collaboration with the Private Sector
    PSO encourages the connection of the private sector to state and 
local community based programs. For example, through FEMA's Citizen 
Corps program, the private sector can connect with State and local 
government, citizens and first responders through State and local 
Citizen Corps Councils. Citizen Corps' primary mission is to bring 
community and government leaders together in an all-hazards emergency 
preparedness, planning, mitigation, response, and recovery framework. 
The Citizen Corps nationwide network includes more than 2,200 Citizen 
Corps Councils located in all 56 States and Territories. Councils are 
encouraged to include the business community and integrate business 
resources with community preparedness and response preparedness 
activities, planning, and exercises.
    Citizen Corps' Partner Programs also collaborate with businesses. 
National Partner Programs include more than 2,600 Community Emergency 
Response Teams (CERT) and hundreds of Fire Corps, Medical Reserve 
Corps, Neighborhood Watch, and volunteers in Police Service programs 
around the country. Many CERTs already include the business community 
in their training and exercises. For example, the San Diego County CERT 
has trained local utility and telecomm employees as part of their 
partnerships, and many CERTs have adapted the curriculum to business 
needs, providing Business Emergency Response Training for employees.
    An important priority for Citizen Corps Councils at all levels is 
to educate and inform Americans in all sectors--including the private 
sector--about steps they can take to be prepared. The Citizen Corps 
program works closely with the Ready Campaign, making Ready Business 
and other Ready materials widely available. Furthermore, Citizen Corps 
encourages its Councils to work with local emergency management and to 
incorporate work continuity plans and planning in specific community 
context.
    PSO also supports outreach by State and local government to the 
private sector. Last month PSO worked with the City of Charlotte and 
its Chamber of Commerce as well as with the U.S. Chamber of Commerce in 
the design and development of the Charlotte Regional Business 
Preparedness Summit. This summit provided the business community with 
Federal resources, a forum to engage Charlotte's Office of Emergency 
Management and its local first responder community, a forum to engage 
Federal, State and local public health officials regarding Pandemic 
Flu, a showcase to highlight best practices in Charlotte's business 
community for business continuity planning, and finally, a first hand 
opportunity to learn the fundamentals of business continuity as 
outlined by the NFPA 1600.
    This event was a pilot initiative with our office and the U.S. 
Chamber of Commerce to increase engagement of business owners and 
operators on the importance of business continuity planning, emergency 
response coordination and pandemic flu preparedness. As a result of 
this pilot the Private Sector Office is working with the Ready Campaign 
to create a toolkit for communities to will help them bring together 
the business community with local government to educate, encourage and 
empower local businesses owners and operators to be prepared and to 
involve them in community preparedness planning and outreach 
initiatives.

Business Preparedness Awareness
    The PSO supports the Department's business preparedness awareness 
and outreach. One of the largest outreach initiatives held by the 
Department is National Preparedness Month. Held in September, it 
encourages Americans to prepare for emergencies in their homes, 
businesses, and communities. For the first time, the NPM will 
specifically dedicate an entire week, September 9-15th to encouraging 
business preparedness.
    I want to thank the Homeland Security Committee Chairman Thompson 
and Ranking Member King, as well as Senators Joe Lieberman and Susan 
Collins, for their leadership and agreeing to serve as honorary 
Congressional co-chairs of National Preparedness Month.
    This year's effort already has a growing coalition of more than 625 
national, regional, State, and local organizations pledging support, 
many of which are based in the private sector.
    National Preparedness Month coalition members, a majority of which 
are private sector partners, have agreed to distribute emergency 
preparedness information and sponsor activities across the country that 
will promote emergency preparedness.

Pandemic Flu Preparedness
    PSO supports DHS components in the development and outreach 
objectives of the Pandemic Planning Guide for Critical Infrastructure 
and Key Resources. This guide was created in partnership with the 
Department of Health and Human Service's Centers for Disease Control 
based on the principles of the national standard for business 
continuity, the NFPA 1600. In partnership with SafeAmerica and the U.S. 
Chamber of Commerce, PSO participated in a series of pandemic flu 
preparedness events across the country. PSO reached out to the DHS 
Chief Medical Officer, the DHS Office of Infrastructure Protection and 
to the U.S. Department of Health and Human Services, U.S. Department of 
Education, U.S. Department of Labor and the U.S. Department of 
Agriculture to promote joint pandemic outreach initiatives.
    The Department also collaborated on the development of pandemic 
planning checklists for a variety of audiences to include individuals 
and families, businesses, communities, healthcare, schools as well as 
State and local governments. These checklists are utilized by thousands 
of individuals and organizations as they begin and refine their 
pandemic plans. These checklists, in addition to the planning guidance 
published by DHS, are aiding citizens and businesses as they do their 
part to become more resilient community--not only for a pandemic, but 
for any type of emergency.

Encouraging Interagency Collaboration with the Private Sector
    PSO encourages collaboration between the Federal government and the 
private sector to promote emergency preparedness. For example, PSO 
worked with the DHS Office of Infrastructure Protection to coordinate 
with the Department of Energy (DoE) to encourage owners and operators 
of gasoline stations to wire and install generators to operate fuel 
pumps in case of a power outage. Additionally, the Department worked 
with DoE to sponsor exercises that included electrical and oil and 
natural gas industry. We also sought to identify lessons learned and 
needed changes to protocols. Industry also participated in a lessons 
learned forum to identify best practices and needed changes to 
prevention, protection, response and recovery.

Leveraging Information Sharing, Communications and Collaboration with 
the Private Sector
    The Department manages many programs and initiatives which 
regularly foster communications and facilitate the sharing of 
information between the government and the private sector. In fact, we 
believe that homeland security is our nation's greatest public-private 
partnership. We believe that utilizing the capacity of private sector 
to expand the reach of emergency response and public safety networks is 
vital in mitigating potential loss of life and property in an 
emergency. Simultaneously, the private sector is also eager to acquire 
accurate and timely information from all levels of government to be 
able to act quickly as part of their risk management processes and to 
protect their employees, operations, and assets.
    PSO works with FEMA to institutionalize the concept of information 
sharing through public-private partnerships and to integrate the 
private sector into FEMA's communications, outreach, and operations. 
For example, we are assisting FEMA in its proactive approach of 
incorporating the private sector into emergency operations.
    We are also helping FEMA incorporate private sector expertise into 
its operations by creating the FEMA Loaned Business Executive Program. 
This initiative will bring seasoned experts from the private sector 
into FEMA operations to serve as advisors and collaborators on mission 
critical programs such as logistics, credentialing, and incident 
response.
    Working with FEMA's National Exercise Division and the Office of 
Infrastructure Protection, PSO encourages the private sector to train 
and exercise their business emergency plans. Two highly successful 
national exercise programs that encourage the inclusion and 
participation of the private sector are detailed below.

National Top Official Exercise: TOPOFF 4
    FEMA's National Exercise Program manages the Top Officials 4 
(TOPOFF 4) exercise set to take place in October 2007. This is the 
Nation's premier terrorism preparedness exercise, involving top 
officials at every level of government, as well as representatives from 
the international community and private sector. Sponsored by DHS, 
TOPOFF 4 is the fourth exercise in the TOPOFF Exercise Series, a 
congressionally mandated exercise program. Each TOPOFF exercise 
involves a two-year cycle of seminars, planning events, and exercises 
culminating in a full-scale assessment of the Nation's capacity to 
prevent, prepare for, respond to, and recover from terrorist attacks 
involving Weapons of Mass Destruction (WMD).

National Cyber Exercise: Cyber Storm II
    The National Cyber Exercise Cyber Storm II, scheduled for March 
2008, is a national cybersecurity initiative designed to exercise 
communications, coordination, and partnerships across the public 
(Federal, State, local and international) and private sectors in the 
event of a cyber attack. The exercise will allow participants from 
government and the private sector to examine their capabilities to 
prepare for, protect, and respond to the potential effects of cyber 
attacks. Cyber Storm II will also provide public and private sector 
participants with the opportunity to build relationships for further 
collaboration, especially during an emergency.

Leveraging the Private Sector in Emergency Response
    While the private sector holds resources and expertise which the 
government may seek to utilize in responding to and recovering from a 
disaster, there are several challenges that stand in the way of 
realizing a full partnership. There are legal and proprietary 
limitations which may hinder the private sector's ability become a full 
partner in preparedness as well as provide solicited goods and services 
to the government in the event of an emergency. As I mentioned earlier, 
this is a limitation that may deter the private sector from becoming 
involved in preparedness activities for fear of liability and loss of 
an economic opportunity. Conversely, governments at all levels must 
abide by specific procurement law, regulations, and requirements when 
acquisitioning goods and services from the private sector. These 
impediments may reduce the ability for government to leverage the 
resources and assets of the private sector in an emergency.
    All levels of governments are looking for ways to bridge the 
ability of the private sector to work with governments. For example, 
FEMA has now created pre-negotiated contracts for emergency services to 
be able to expedite the procurement process and deliver goods and 
services to an effected area quickly. This action was taken from 
lessons learned during the 2005 hurricane season. We have seen that 
State and local governments have also begun a similar process to ensure 
that goods and services can be brought to bear in a cost effective and 
expedited manner.
    We understand that while many in the private sector seek to provide 
solicited goods and services to governments during an emergency, there 
are many businesses across the world who, acting as good corporate 
citizens, want to ``do something''. The private sector, just like 
individuals, seeks to contribute in their own way by offering 
unsolicited goods, services, and volunteers to aid State and local 
government in disaster response. We saw this during the 2004 hurricane 
season when companies from around the world offered boats, planes, 
communications, and volunteers to Federal, State and local government. 
It was after that season that the Private Sector Office created the 
National Emergency Response Registry (NERR), which managed (in a 
virtual environment) the offers of unsolicited goods and services. 
However, during Hurricane Katrina, NERR was unable to adequately manage 
the flood of unsolicited offers of goods and services. To replace NERR 
and address the need for a robust donation management system during a 
crisis, FEMA reached to AIDMATRIX, a nonprofit organization who, 
through a grant from FEMA, has created a virtual superhighway for all 
levels of government, the private sector and nonprofits to connect and 
share unsolicited offers of products, services and volunteers both for 
crisis management and everyday mission support.
    Subsequently the NERR framework was retooled to create FEMA's 
Debris Contractor Registry. This is an electronic database developed to 
assist State and local governments identifying and contacting debris 
removal contractor resources. The information is provided and 
maintained by contractors and their representatives.
    We believe that a company's greatest asset is its people. We have 
seen an increase in the number of corporations providing assistance to 
employees who have been affected by an emergency. By taking care of 
their employees, the private sector knows they are more able to get 
their operations back online quickly after an interruption. For 
example, many corporate employee assistance programs are now being 
tailored to assist the response and recovery needs of employees who may 
have been severely impacted by a disaster. We found that during the 
2005 hurricane season, companies provided housing for not only their 
impacted employees, but also to their extended families, while also 
providing services such as job placement, health and medical care. We 
have also seen companies utilize technology tools to locate and 
mobilize assistance to their employees within minutes. For example, a 
company utilized an online mapping system with their employees' home 
addresses to quickly locate their employees in the event of an 
emergency. Within minutes of the Enterprise, Alabama tornados, they 
were able to locate and mobilize targeted assistance to employees whose 
homes were in the area of the tornado. This type of rapid response to 
employee safety and well-being is just one example of how the private 
sector can transform how organizations of all kinds prepare their 
employees, operations, and assets for an emergency.
    The Private Sector Office provides support to assist the 
Department's components in empowering and engaging the private sector 
to be a full partner in emergency preparedness and response. Public-
private partnerships can expedite the preparedness and recovery 
processes by creating an environment of relationship building and 
information sharing which in turn may create better communication, 
trust, and collaboration between government and the private sector.

Summary
    Public--Private Partnerships have existed in the United States for 
many years. They often have very diverse membership involving one or 
more levels of government and can also involve varying numbers of 
private sector organizations.
    One essential characteristic of a successful Public--Private 
Partnership is that it must provide clear benefits to all parties, 
including a shared and valued outcome. These benefits constitute the 
``value proposition'' of the Partnership and define the motivations and 
contributions that members bring to it.
    There are very many types of Public--Private Partnerships. The more 
successful ones have a scope and purpose that results in continuing 
benefits to the public and private participants and also have 
``champions'' in both the public and private sectors. Mishandling of 
shared information between the public and private participants, 
changing goals of government or private sector partners, loss of 
``champions'', and potential liability for sharing information are 
among the main risks that can cause premature termination of Public--
Private Partnerships.
    The results and impacts of Public--Private Partnerships for 
prevention, protection, response, and recovery have been very positive 
and have increased in the past five years both from pre-existing 
partnerships and from newly created ones.
    Public-private partnerships are not ``disguised charity'' by the 
private sector. Good partnerships serve common public/private sector 
interests, and private partners must be chosen carefully based on their 
business interests and resources. Public-private partnerships are not a 
means to shift the public burden away from government. However, a 
``partnership'' in its truest state, is where both partners contribute 
their core skills and services as a joint effort. This collaboration 
creates an environment which builds trust, communication and 
cooperation. These results only enhance our nation's ability to better 
prevent, protect against, respond to, recover from an act of terrorism 
or a natural disaster.

    Mrs. Christensen. I now recognize Director Bourne to 
summarize his statement for 5 minutes.

   STATEMENT OF MARKO BOURNE, DIRECTOR OF POLICY AND PROGRAM 
         ANALYSIS, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Bourne. Thank you. Chairman Cuellar, members of the 
committee, I appreciate the opportunity to appear here today. 
My written statement goes into great detail on the business and 
management processes that we have been changing in FEMA in what 
Administrator Dave Paulison calls "new FEMA" and really it is a 
change in the way we are approaching not only our day-to-day 
operations but our disaster work and our outreach to the 
private sector.
    In my remarks I would like to just focus on a couple of key 
elements in our strengthening relationships with our partners 
in the private sector and the benefits that we are already 
beginning to see from it. We are working diligently to build a 
new FEMA that is stronger and nimble. We have been given 
expanded authorities by this Congress and resources to 
implement our reorganization, strengthen our existing 
structure, incorporate the core elements of what was the 
Preparedness Directorate of DHS and other organizations as part 
of this new organization.
    One of the first ways we have used our relationship with 
the private sector is to get the ball rolling on our 
organizational reforms. Administrator Paulison initiated late 
last year 17 business assessments of FEMA's business practices 
and processes. They included recommendations for how we can 
reform our process and our service to the public through best 
practices from the private sector, and we have already 
institutionalized many of these recommendations. These 
assessments also are an essential part of the reorganization 
process.
    While our new structure is in place now and we continue to 
further refine it, today FEMA is focused on its relationships 
with the private sector in key areas such as preparedness 
partnerships, our ongoing assessments, our enhanced logistical 
supply chain management, our contracting, our catastrophic 
event planning, our donations management, strong community 
coalition building, industry fairs, outreach, and our 
partnerships with State and local governments and encouraging 
them to also reach out to their private-sector partners.
    I am happy to note that this relationship has been a two-
way street. Many businesses are taking active steps to 
implement the recommendations of the Ready Business program. 
FEMA was part of the creation of that and are pleased that that 
has taken such root in the business community. And we are 
looking at more ways to outreach to emergency management at the 
State and local level so that they can participate in getting 
private-sector partner to cooperate in planning for disasters 
in advance that may affect cities in regions in which they 
work.
    FEMA is also engaging the private sector to help us assess 
and build a stronger emergency management system. We do this 
through our infrastructure protection programs, our legacy 
grant programs that came over from the Preparedness 
Directorate, report security grant program, transit inner city 
bus and others.
    Increasingly, we are trying to leverage the resources and 
expertise of our partners in the private and nonprofit sectors 
even above the important role they have always played in the 
past. This increased reliance comes about because the new FEMA 
is trying to develop innovative ways to move forward, leaning 
quicker and forward-responding to disasters and emergencies.
    We have done a number of prescriptive mission assignments, 
prenegotiated contracts rather than waiting until an event 
happens to do our contracting, and, since Katrina and Rita, 
FEMA has worked aggressively to award hundreds of prenegotiated 
competitive contracts with large, small business set-aside 
requirements that are in place and ready for this existing 
hurricane season and available to us in the future.
    We have also revamped our logistics management. We have 
created a new directorate that is specifically responsible for 
logistics management, and it is importing the best practices 
from the private sector as well as our government partners such 
as the Defense Logistics Agency. The Citizen Corps program is 
available to all communities for outreach on emergency 
preparedness planning, mitigation and response, and there is 
over 2,200 Citizen Corps Councils that involve the private 
sector across the country.
    In FEMA's opinion, the private sector should also continue 
in several areas to build upon their own preparedness in many 
critical paths, the first being developing strong relationships 
and strong business plans internally for their own continuity 
of operations at all of their locations and their critical data 
centers; to develop employee support plans for when employees' 
office locations are damaged or affected, or if employees have 
lost their homes to disaster.
    A key element of any recovery is getting people back to 
work as quickly as possible. We encourage prudent risk 
management programs, health and safety programs, working 
closely with the local and State emergency managers to build 
disaster protocols ahead of time.
    The private sector is also working with FEMA on a number of 
initiatives, and we have specifically had meetings with both 
the Chamber of Commerce, BENS, Business Executives for National 
Security, and the Business Roundtable. Recent meetings held 
last month with the Chamber and BENS were looking at providing 
an opportunity for the business community to have a seat in the 
National Response Coordination Center here in Washington, D.C., 
and ultimately in our regional coordination centers in the 
regions. And the Chamber is actively and aggressively working 
with us over the next month to actually put that in place.
    FEMA is also integrating the private sector in a number of 
our programs and we are pleased with the support that we are 
getting from the Department of Homeland Security's Private 
Sector Office in assisting us in that manner.
    To give you one example on a regional level, our Boston 
Region I office has begun working with regional, national and 
global companies based in New England in order to inform and 
establish an information-sharing network. These include 
Verizon--who is with us today--Raytheon, Bank of America, G-
TECH and hundreds of others as part of a newly developed 
network that is reaching out to more than 5 million people in 
New England.
    We are also working with these companies to develop 
communications networks between government and the private 
sector with the purpose of creating a free flow of information 
before, during, and after an incident. These will help us 
leverage those resources.
    These are just a few highlights of the approach that we are 
taking. We consider our first responder--or, rather, our 
business partnership to be in its early days. We want to see a 
continued growth. We want to work to establish even stronger 
relationships, build the expertise, begin to use our Aidmatrix 
system that we have supported to develop the donations 
management portal that all States and emergency management at 
the local level can use for donated resources.
    We are doing a pilot program in Denver with Infraguard and 
the BENS chapter in Denver, Colorado, also on outreach and 
information sharing. All of these are part of our outreach 
effort, and we are going to continue to press forward on those. 
We believe that the private sector has a prominent role in 
emergency management, and we want to build the relationships 
that we can, and we are committed to doing so.
    And I thank you for the opportunity to be here today and to 
speak about where we are going with new FEMA and look forward 
to answering any questions you might have.
    Mrs. Christensen. Thank you, Mr. Bourne.
    [The statement of Mr. Bourne follows:]

                   Prepared Statement of Marko Bourne

Introduction
    Chairman Cuellar and Members of the Committee.
    I am Marko Bourne, Director of Policy and Program Analysis and 
Evaluation at the Department of Homeland Security's Federal Emergency 
Management Agency.
    You have heard Administrator Paulison discuss his vision for a 
``new FEMA.'' It is the Nation's preeminent emergency management and 
preparedness agency. And, it demonstrates an ethos of leaning further 
forward to deliver more effective assistance to communities and 
disaster victims. The new FEMA is focused on:
        <bullet> Leading the Nation to better prepare against the risk 
        of all-hazards, including terrorism;
        <bullet> Marshaling an effective national response and recovery 
        effort;
        <bullet> Reducing the vulnerabilities of lives and property;
        <bullet> Speeding the recovery of communities and individual 
        disaster victims; and,
        <bullet> Instilling public confidence when it is needed most--
        in the hours and days following a disaster.
    And, it accomplishes these objectives through the professional 
efforts of dedicated women and men who are developing operational and 
support core competencies; and implementing operational and business 
practices designed to lead the Nation's domestic preparedness, response 
and recovery missions in an all hazards environment. The new FEMA is 
adding value to and working hard to improve disaster response and 
emergency management programs at all levels of government and in the 
private sector. FEMA is a proactive, engaged, agile and responsive 
leader and partner in preparedness and emergency management.
    We are working diligently to build this new organization, while 
leveraging the solid foundation of expertise and accomplishment brought 
to FEMA by core elements of the former DHS Preparedness Directorate 
that, since April 1st of this year, are now a part of FEMA. These past 
and ongoing preparedness activities are being integrated with the 
actions and initiatives that FEMA has been taking for the past 18 
months to improve operational efficiency, build mutually beneficial 
partnerships, learn best practices, and gain valuable insight on how we 
can and should operate in the future.
    In particular, FEMA is focused on improving its relationships with 
the private sector by focusing on key areas such as preparedness 
partnerships, internal organizational assessments, enhanced logistical 
supply chain management, contracting, planning for catastrophic events, 
donation management, strong community coalition building, and industry 
fairs and outreach.
    As the committee considers private sector preparedness efforts and 
challenges, at FEMA we are working closely with the DHS Private Sector 
Office (PSO), the Office of Infrastructure Protection (OIP), the Office 
of Public Affairs and others to strengthen the outreach to a critical 
partner in the response and recovery from emergencies. In order to 
achieve a greater level of private sector preparedness, many businesses 
have updated their business continuity plans based on their lessons 
learned from Hurricanes Katrina, Rita, and Wilma, and are working with 
emergency management officials at local, state and federal levels to 
get more involved in planning for disasters that may affect the cities 
and regions in which they operate. FEMA is also engaging the private 
sector to assist us in our efforts to build a stronger emergency 
management system. Through the National Incident Management System 
(NIMS) and the National Response Plan (NRP) revision process, FEMA and 
OIP worked with industry representatives to include language in NIMS 
that integrates the private sector as a full partner in incident 
management.

Preparedness Partnerships
    Of course, FEMA does not and can not accomplish its important 
mission alone. We rely on all of our partners across the emergency 
management spectrum. Increasingly, we are leveraging the resources and 
expertise of our partners in the private and non-profit sectors--even 
above and beyond the important role they have always played in the 
past.
    This increased leveraging of capabilities comes about because the 
new FEMA is developing and using innovative ways to be more forward 
leaning in response to disasters or emergencies. One way we are 
accomplishing this is through pre-scripted Mission Assignments and pre-
negotiated contracts to provide necessary resources.
    We also have a vast portfolio of grant programs FEMA now manages 
that supports implementation of the Interim National Preparedness Goal. 
The Goal outlines an all-hazards vision that cuts across the four 
mission areas of preparedness: to prevent, protect against, respond to 
and recover from major events, including terrorist attacks and 
catastrophic natural disasters. The Goal is truly national in scope, in 
that its successful implementation requires engagement across Federal, 
State, local, and tribal levels, as well as the private sector and 
individual citizens.
    Also, DHS' grant programs allow a tremendous amount of flexibility 
for State and local jurisdictions to include private sector entities in 
planning efforts. Allowable activities include the development of 
public/private sector partnership emergency response, assessment and 
resource sharing plans, development or enhancement of plans to engage 
with the private sector/non-governmental entities working to meet human 
service response and recovery needs of victims and the development or 
enhancement of continuity of operations and continuity of government 
plans.
    Although many of FEMA's grant programs award funds to state or 
local governments to implement projects that support their State or 
Urban Area Homeland Security Strategies, ongoing coordination with 
private sector partners--particularly on key issues related to critical 
infrastructure protection where the private sector owns 85% of the 
assets--is absolutely necessary. The private sector plays a vital role 
in the planning process that supports the implementation of 
preparedness grants in the field. Recognizing this vital role, FEMA has 
engaged organizations such as Business Executives for National Security 
(BENS), the U.S. Chamber of Commerce, and the Council for Excellence in 
Government to further the dialogue on preparedness.
    One exception is the Urban Areas Security Initiative (UASI) 
Nonprofit Security Grant Program (NSGP) for which nonprofit 
organizations in the 46 designated UASI areas are eligible for grants. 
This grant program, announced this past April, will provide over $24 
million to eligible 501(c)(3) organizations who are deemed high-risk of 
a potential terrorist attack. Through this program, we are working with 
the private sector to enhance their security. In addition, FEMA's Port 
Security Grant Program (PSGP) is open to public and private owners and 
operators of critical port infrastructure. Overall, PSGP has provided 
more than $1 billion to public and private entities since its inception 
in Fiscal Year (FY) 2002. Most of the funding in initial years of this 
program was awarded to federally-regulated private entities. Over the 
last 2 years, however, public entities received a higher proportion 
consistent with the DHS approach to securing critical infrastructure.
    The Intercity Bus Security Grant Program (IBSGP), Trucking Security 
Program (TSP), and the Transit Security Grant Program (TSGP) are also 
available to the private sector. Similar to PSGP, these programs are 
focused on our nation's critical transportation infrastructure. In the 
case of the IBSGP and the TSP, 100% of the awards are made to private 
entities. IBSGP is targeted exclusively to commercial over-the-road bus 
entities to enhance the security of intercity bus systems that service 
Urban Area Security Initiative (UASI) sites. Through the IBSGP, DHS has 
awarded a total of more than $60.5 million to commercial owners/
operators of over-the-road buses providing fixed route services or 
charter bus services in high risk regions since FY 2003.
    Since FY 2003 DHS has provided over $62 million, through TSP, to 
the American Trucking Association (ATA), supporting operations of the 
Highway Watch Program to enhance security and overall preparedness on 
our nation's highways. Through the Highway Watch Program, a 
cooperative agreement with the ATA, highway professionals are recruited 
and trained to identify and report security and safety situations on 
our Nation's roads. ATA has used these funds to train more than 400,000 
commercial truck drivers in highway security domain awareness and to 
operate a nationwide call center for truckers to report security 
incidents.
    Funding for the TSGP is used to enhance the security of rail 
transit systems including commuter, light and heavy rail; intra-city 
bus; inter-city passenger rail (Amtrak); and ferry systems. 
Additionally, the Intercity Passenger Rail program, part of the TSGP, 
was created in FY 2005 to provide assistance to Amtrak to improve 
security to its passengers and to date DHS has awarded approximately 
$22 million under this program.
    Another significant example of public- private partnering is 
through FEMA's new Training and Education Division, which has a number 
of courses being developed or delivered that are available for private 
sector participation. For example, the new online training relating to 
the National Infrastructure Protection Plan (IS 860) is designed to be 
used by both government and private sector security partners. More than 
3000 individuals have taken this course since it was posted this past 
year.
    The National Exercise Division (NED) works closely with the 
Department's Private Sector Office and Office of Infrastructure 
Protection (OIP) to develop a systematic means to integrate the private 
sector into national level exercises as well as taking steps to 
coordinate future modifications to the Homeland Security Exercise and 
Evaluation Program that will encourage and guide State and local 
efforts to construct exercise activities inclusive of the private 
sector.
    Moreover, private sector entities continue to be involved in the 
Hurricane Preparedness Exercise activities that are sponsored by the 
NED on an annual basis. Finally, NED, through its Direct Support 
Exercise Program, works with Major League Baseball, the National 
Football League, and other activities to organize and conduct exercises 
to ensure preparedness for large scale incidents at their venues that 
attract large concentrations of people.
    The U.S. Department of Homeland Security and the Advertising 
Council launched the Ready Business Campaign in September 2004. This 
extension of Homeland Security's successful Ready Campaign, designed to 
educate and empower Americans to prepare for and respond to 
emergencies, focuses specifically on business preparedness. Ready 
Business helps owners and managers of small- and medium-sized 
businesses prepare their employees, operations and assets in the event 
of an emergency.
    Ready Business was developed by Homeland Security and launched in 
partnership with the U.S. Chamber of Commerce, Small Business 
Administration, Society of Human Resource Management, The Business 
Roundtable, The 9/11 Public Discourse Project, ASIS International, 
Business Executives for National Security, International Safety 
Equipment Association, International Security Management Association, 
National Association of Manufacturers, National Federation of 
Independent Businesses, and Department of Labor's Occupational Safety 
and Health Administration.
    The goal of Ready Business is to raise the business community's 
awareness of the need for emergency planning and motivate businesses to 
take action. The campaign encourages business owners and managers to 
discuss the benefits of emergency preparedness measures and the need to 
plan to stay in business; talk to their employees; and protect their 
investment.
    Ready Business also has a Spanish language companion, Listo 
Negocios, which provides several Ready Business tools and resources 
translated into Spanish.
    The campaign's messages are delivered through: television, radio, 
print, outdoor and Internet public service announcements (PSAs) 
developed and produced by the Advertising Council; brochures; 
www.ready.gov and www.listo.gov Web sites; toll-free phone lines 1-800-
BE-READY and 1-888-SE-LISTO; and partnerships with a wide variety of 
public and private sector organizations.
    In May 2006, the Ready Campaign launched the Ready Business 
Mentoring Initiative. This initiative is designed specifically to help 
owners and managers of small and medium-sized businesses prepare for 
emergencies. Materials were created to assist business and community 
leaders in hosting and delivering business preparedness workshops and 
training sessions. These sessions and the Ready Business Mentoring 
Guides outline how businesses can plan to stay in business; talk to 
employees; and protect assets. Workshop materials were provided through 
collaboration through the USDA Cooperative Extension Service funded 
Education Disaster Extension Network (EDEN).
    To reach businesses and business organizations across the country, 
the Department reached out to U.S. Department of Commerce, Small 
Business Administration, U.S. Department of Agriculture and the 
nation's leading business organizations to distribute the Ready 
Business Mentoring Guides and provide access to its resources.
    In addition to the Ready Business Mentoring Initiative, the 
Department also works with the private sector to encourage the adoption 
of the NFPA 1600 at the local level. For example the Department 
collaborated with the U.S. Chamber of Commerce on a pilot initiative to 
create a Regional Business Preparedness Summit in Charlotte, North 
Carolina. This event brought together local leaders in emergency 
management, public health and the private sector. Local businesses 
learned the importance of creating and exercising their business 
emergency plan, involving their employees, protecting their assets and 
coordinating with their local emergency management network.
    FEMA is also integrating the private sector in a myriad of 
initiatives across the Agency. For example, we are working closely with 
Homeland Security's Private Sector Office to utilize their concept of 
relationship and partnership building with the private sector. We have 
embraced Homeland Security's Private Sector Office staff as part of our 
senior advisors. We are working together on initiatives where we can 
integrate the private sector into our communications, outreach and 
operations or by their expertise in such mission critical areas such as 
logistics.
    A few highlights of our new approach to the private sector are:
    We are exploring opportunities for the private sector to be 
represented in our national response and coordination center. 
Currently, we are working with the Private Sector Office to have a 
private sector representative included in various aspects of the Joint 
Field Office at the site of a major disaster or emergency to assist 
with the economic aspects of rebuilding and to inform the leadership at 
the site about available private sector assets to assist in response 
and recovery.
    We are incorporating private sector expertise into our operations 
by creating the FEMA Loaned Business Executive Program. This initiative 
brings seasoned experts from the private sector into FEMA operations to 
serve as advisors and collaborate on mission critical programs.

    Other initiatives include:
        <bullet> Private Sector participation in the Regional Emergency 
        Communications Coordination Workgroup.
        <bullet> Memorandum of Understanding (MOU) with Stadium Owners/
        Operators.
        <bullet> Pilot program with Infragard in Denver, Colorado.
        <bullet> Mutual Aid for businesses.
        <bullet> Mutual Aid Training for businesses.
        <bullet> Developing Pilot Website to serve as a repository for 
        posting information about the above activities, training 
        opportunities, business continuity, as well as referrals to 
        founding organizations.
        <bullet> Establishing a working group within FEMA for 
        developing and integrating credentialing requirements and 
        programs such as the FEMA First Responder Authentication Card 
        and Common Credential projects with wider government 
        credentialing efforts of the DHS Screening Coordination Office.

Internal Organizational Assessments
    At the end of last year, Administrator Paulison initiated a series 
of 17 independent Agency-wide organizational assessments as part of his 
commitment to lead FEMA to become the Nation's preeminent emergency 
management and preparedness Agency. The completed assessments 
established a baseline of FEMA's key systems, processes and 
capabilities in the areas of acquisition and contract management; 
finance and budget; human resources and disaster workforce; information 
technology, security, facilities, and logistics. The recommendations 
were built upon public and private best practices and were documented 
first in initial reports and then later in January 2007 in the 17 Final 
Reports. FEMA has moved quickly to implement the recommendations. This 
led to leveraging the private sector in vendor managed arrangements in 
supply chain management and logistics, advance contracting for response 
and recovery services, as well as developing an Business Executive Loan 
Program to incorporate lessons learned and enhance business practices 
and movement toward integrating private sector liaisons in national, 
regional and field emergency operations coordination centers

Enhanced Supply Chain Management and Logistics
    FEMA's new Logistics Management Directorate is fulfilling a 
critical core competency by developing a disciplined, robust, and 
sophisticated supply and service capability. This Directorate will 
effectively plan, coordinate and manage the Federal logistics response 
and logistics recovery operations in support of domestic emergencies 
and special events.
    FEMA is strengthening its collaborative partnerships with both the 
public sector and the private sector and have leaned toward 
establishing vendor managed arrangements for the storage, rotation, and 
shipment of certain commodities. FEMA is researching industry best 
practices to determine how they can enhance our logistical operations. 
While FEMA will continue to stock commodities for initial surge 
requirements (provide support for 1 million people within 72 hours); 
FEMA will work with pre-established partnerships for sustainment and 
for larger scaled supply chain initiatives. These partnerships have 
also helped to improve FEMA's immediate response and logistics 
capabilities by reducing the acquisition and distribution time, 
reducing the replenishment lead-time, and by strengthening FEMA's day 
to day supply chain operations.
    To facilitate this involvement, Logistics Management sponsored 
market research in collaboration with the DHS Private Sector Office and 
the U.S. Chamber of Commerce.
    In pursuit of this enhanced capability, Logistics Management is 
also analyzing its current business operations, its management 
practices and exploring the use of Third Party Logistics (3PL) 
providers for its transportation and warehouse management missions.
    As with many of FEMA's operational offices, Logistics relies 
heavily on the private sector to provide critical operational support 
through competitively awarded contracts. Logistics has contracts with 
private sector for:
        <bullet> National Commercial Bus Transportation Contract--Third 
        party services for bus transportation. This contract provides 
        over 1,000 coach buses for evacuation purposes. While 
        evacuation is not a federal responsibility, we do have a 
        responsibility to ensure that we are prepared to help states in 
        crisis by providing this key asset.
        <bullet> Base Camp support (July 31, 2007 target award date)--
        In the aftermath of a disaster, FEMA is often required to house 
        its own response personnel, as well as personnel from State and 
        local governments, other federal agencies, and volunteers. 
        Under this contract, our private sector partners will be 
        responsible for housing all authorized camp occupants with 
        tents or modular units, equip tents and other facilities with 
        air conditioning and heating, and leveled plywood floors, as 
        well as provide bedding, meal services, kitchen, dining hall, 
        limited recreation facilities, operations center, medical unit, 
        refrigerated trucks, shower units, hand wash units, potable 
        (drinking) water, water purification and manifold distribution 
        systems, toilets, on-site manifold distribution of black and 
        grey water and associated on-site sanitation systems, complete 
        laundry service, industrial generators, and light towers.
    FEMA's logistics organization will be one that is proactive and 
couples 21st century technology and a professional workforce with 
strategic public and private partnerships.

Contracting
    The first priority of FEMA during the initial phase of a major 
disaster is and has always been to provide relief to victims in the 
most efficient and effective way possible in order to save lives and 
property. FEMA's goal is to use competitive strategies while also 
providing local and socioeconomic businesses a competitive advantage 
whenever possible. FEMA had some pre-negotiated contracts in place 
before Hurricane Katrina; however, the extreme circumstances of storms 
like Hurricanes Katrina and Rita demonstrated that these few 
contingency contracts could not sufficiently meet mission requirements. 
As a result, many non-competitive contracts were needed in order to 
effectively and efficiently save lives and property.
    Due to the magnitude and length of recovery time of Hurricanes 
Katrina and Rita, FEMA has recognized the need for more robust, well-
planned contingency contracts and a thorough understanding of the 
qualifications and capabilities of the private sector in areas related 
to the Agency's mission. Since Katrina and Rita, FEMA has worked to 
aggressively award pre-negotiated competitive contracts, and these are 
in place and ready for the 2007 hurricane season. Contract agreements 
are in place covering all aspects of FEMA disaster management including 
logistics, mitigation, individual assistance, recovery, management, and 
integration center support.
    By having advance contracts or similar agreements in place, FEMA as 
well as State and local first responders are more organized and 
efficient. Additionally, coordination is made easier among the federal, 
state and local governments, as each entity is aware of the goods and 
services for which FEMA has already contracted in the event of 
disaster. This increased coordination makes for a more effective and 
efficient response.
    FEMA is particularly committed to working and partnering in advance 
with industry partners from the small and disadvantaged business 
community as well as local companies within disaster areas. The Agency 
is accomplishing its goal of benefiting these businesses through 
numerous initiatives, including:
        <bullet> Participating in outreach forums to meet with the 
        Small Business Community;
        <bullet> Conducting personal meetings with interested vendors/
        contractors to present company capabilities and performance;
        <bullet> Developing goals and acquisition strategies which are 
        increasingly structured for maximizing the number of awards to 
        small businesses;
        <bullet> Networking with representatives of the U.S. Small 
        Business Administration and local small business development 
        centers;
        <bullet> Participating in local, state and national 
        conferences, seminars, and exhibits to gain access to current 
        small business issues and interface with business and industry; 
        and
        <bullet> Creating a voluntary, debris removal contractor 
        registry to enable small and local firms to notify FEMA, and 
        interested state and local governments, of their capability to 
        support disaster response and recovery requirements as needs 
        arise.

Catastrophic Disaster Planning
    FEMA's Disaster Operations Directorate has collaborated closely 
with the DHS Private Sector Office (PSO), Office of Operations 
Coordination's Incident Management Planning Team and Office of 
Infrastructure Protection (OIP) to ensure that the private sector has 
continued visibility of Federal, State, local, tribal, and critical 
infrastructure coordination and activities related to responding to 
catastrophic disasters and overall awareness of FEMA's Catastrophic 
Disaster Planning Initiative. As part of the U.S. Chamber of Commerce's 
Business Civic Leadership Center and its Homeland Security Division's 
Annual Workshop, the Chamber sponsored a session on June 7--8, 2007, in 
conjunction with the PSO to discuss response to and recovery from a New 
Madrid Seismic Zone Earthquake. One of the primary topics of discussion 
was how the private sector develops partnerships in planning to meet 
the challenge of responding to such an event and integrate planning 
between the public and private sector. A report detailing the results 
of the workshop, recommendations, and how the business community can 
partner with Federal, State, local, and tribal governments and critical 
infrastructure owners will be prepared and used as we move forward with 
the Catastrophic Disaster Planning Initiative not only for the New 
Madrid Seismic Zone, but also for the Florida (Category 5 Hurricane 
impacting Southern Florida), and California initiatives. The eight New 
Madrid Seismic Zone States (Alabama, Arkansas, Illinois, Indiana, 
Kentucky, Mississippi, Missouri, and Tennessee) are conducting 
Catastrophic Disaster Response and Recovery Planning Workshops this 
summer. The Chamber workshop served as a catalyst to begin the private 
sector participation in these initiatives.
    The State of Florida has already initiated a series of workshops to 
address response and recovery planning for a Catastrophic Category 5 
Hurricane impacting South Florida and planning for catastrophic 
earthquakes in California is now in the initial phase.
    Important components needed to make the Catastrophic Disaster 
Planning Initiative a success include involving the private sector and 
business community to the maximum extent possible; establishing solid 
partnerships between the public and private sectors and non-
governmental agencies; and highlighting the critical role the private 
sector can play in providing supplemental resources and assistance in 
catastrophic disaster events.

    Integrating Critical Infrastructure Protection as a key component 
of Catastrophic Disaster Planning and Incident Management
    FEMA, in collaboration with OIP, has done extensive work with the 
private sector in the development of processes to integrate the 
protection of critical infrastructure and key resources as a key 
component of incident management, which is critical to planning for 
catastrophic disasters. As a result of the lessons learned from 
Hurricane Katrina, FEMA and OIP worked closely together with other 
Federal departments and agencies and private sector partners to develop 
processes for addressing disaster-related requests from private sector 
Critical Infrastructure/ Key Resources (CI/KR) owners and operators. 
The processes also utilize the partnership model established in the 
National Infrastructure Protection Plan to enhance incident related 
information-sharing and decision making relating to CI/KR. The 
engagement of this public-private partnership as a component of 
incident management is important because the vast majority of the 
infrastructure in our country is owned and operated by the private 
sector. Having an established mechanism to foster coordination 
strengthens our ability to respond to the full spectrum of 21st century 
threats.

Donations Management
    One of the lessons learned from Hurricanes Katrina and Rita is the 
need for a secure, user friendly system to efficiently connect Federal 
and State/Local Governments, the Private Sector and the Voluntary 
Sector to match the volume of donation offers of product and volunteers 
with appropriate nonprofit agencies. To fulfill this need, FEMA has 
partnered with the Aidmatrix Foundation, which has assembled a strong 
community of for-profit and nonprofit partners to come together and 
develop the FEMA In-Kind Donations Management Network. Leveraging 
leading-edge technologies, the information management provides a simple 
but effective means of connecting potential donors with potential 
recipients within the disaster relief community.
    FEMA is providing the Aidmatrix Foundation $950,000 this year to 
expand its existing disaster donations network. These funds will go 
towards establishing the framework for an integrated and coordinated 
approach to donations management by connecting private sector, 
government and leading nonprofit entities in times of disaster. This 
sponsorship will further enable Federal and State/Local emergency 
management organizations to better serve voluntary agencies and their 
private sector partners.
    The FEMA/Aidmatrix In-Kind Donations Management Network will 
streamline the way donations are accepted, processed, tracked, 
distributed and acknowledged. When offers of donated products are made 
to FEMA or individual states, these offers will immediately be made 
available on the online network to participating charities. This, in 
turn, will allow government and nonprofit users to see in real time 
what services and goods are most needed and what donations may already 
be available for immediate distribution.
    Under the cooperative agreement, each state will be provided a 
basic system at no cost. The basic system includes linking or 
connecting to the National Voluntary Organizations Active in Disaster 
(National VOAD) member organizations in that particular state. The 
network also offers states software tools to rapidly set up a call 
center to meet the demands of an inquiring general public wanting to 
help in the aftermath of a disaster. Moreover, it enables states the 
ability to add additional nonprofit organizations, cities, and 
governmental agencies, if desired at their cost.
    Thus far, Aidmatrix has been tested in two states and has received 
favorable feedback. We plan for Aidmatrix to be fully operational in 
near term. Some of its features and benefits are listed below:
        <bullet> In-Kind Donations Management--Call Center and Web 
        Portal--Creates a national in kind and state portals via the 
        web. Enables state's rapid response with a call center. Reports 
        are real-time. Provides enterprise wide visibility online.
        <bullet> Online Relief Warehouse Management--Aidmatrix Online 
        Relief Warehouse Management is a solution based on nonprofit 
        warehouse management best practices. The system provides real-
        time visibility into relief warehouse activity and status for 
        all stakeholders involved in a relief effort. Organizations at 
        the local, state and national level can see up-to-the-minute 
        inventory levels to assist in making decisions in times of 
        disaster.
        <bullet> Financial Donations Management--for those wishing to 
        support a disaster relief operation by way of a financial 
        contribution donors may be able to link directly to a number of 
        voluntary agency websites to make a contribution as they may 
        choose to do. As an optional element, Aidmatrix offers a The 
        Aidmatrix Virtual Aid Drive' a tool that promotes the offering 
        of financial donations to designated voluntary agencies.
        <bullet> Unaffiliated Volunteer Management--Manage the 
        volunteer response and connect offers to agencies with needs 
        efficiently and effectively.

Strong Community Coalition Building
    More than ever, we at FEMA are building stronger and more vibrant 
community coalitions and engaging with the private sector to ensure 
that they have a more prevalent role in emergency response through 
FEMA's Citizen Corps Program. Citizen Corps' primary mission is to 
bring community and government leaders together in an all-hazards 
emergency preparedness, planning, mitigation, response, and recovery 
framework. The Citizen Corps nationwide network includes more than 
2,200 Citizen Corps Councils located in all 56 states and territories. 
Councils are encouraged to include business representation and to work 
with businesses to integrate business resources with community 
preparedness and response plans. An important priority for Councils at 
all levels is to educate and inform Americans in all sectors--including 
the private sector--about steps they can take to be prepared. The 
Citizen Corps program works closely with the Department of Homeland 
Security's Ready Campaign, making Ready Business and other Ready 
materials widely available. Furthermore, Citizen Corps encourages its 
Councils to work with local emergency management and to incorporate 
work continuity plans and planning in specific community context.
    Citizen Corps' Partner Programs also collaborate with businesses. 
National Partner Programs include more than 2,600 Community Emergency 
Response Teams (CERT) and hundreds of Fire Corps, Medical Reserve 
Corps, Neighborhood Watch, and Volunteers in Police Service programs 
around the country. Many CERTs already include the business community 
in their training and exercises. For example, the San Diego County CERT 
has trained local utility and telecomm employees as part of their 
partnerships, and many CERTs have adapted the curriculum to business 
needs, providing Business Emergency Response Training for employees.
    In addition, Citizen Corps Councils are encouraged to build 
strategic partnerships with local governments and businesses to use 
some existing grant funds for their coordinated training activities and 
exercises. Many local Citizen Corps Councils have also developed 
partnerships with major retailers to provide discounts and education on 
supplies to help families prepare for disasters. For example, Utah 
Citizen Corps volunteers worked with all 47 Wal-Mart stores statewide 
to promote preparedness during ``preparedness weekends.'' Wal-Mart has 
also donated $10,000 to support the program, paid for the Citizen Corps 
booth at the 11-day Utah State Fair and donated printed material on 
emergency preparedness. Clear Channel also provided free graphics for 
the Utah Citizen Corps billboards placed throughout the State, focusing 
on the ``Be Ready Utah'' campaign. They worked together on a media 
campaign encouraging Utah residents to remember preparedness items on 
their shopping lists.

Industry Fairs and Outreach
    In an effort to create stronger partnerships with the private 
sector, and to better learn from their best practices and how they can 
support FEMA and the nation during a disaster, FEMA has held two 
important industry fairs to meet with key partners.
    On April 16--17, 2007, FEMA hosted a Manufactured Housing Workshop 
with several key manufacturers dealing with all phases of the housing 
program, including those from the travel trailer and mobile home 
industry. The first day was focused on the new Uniform Federal 
Accessibility Standards (UFAS) specifications FEMA adopted for travel 
trailers and mobile homes to be used in future disasters. On the second 
day, FEMA and the participants discussed creative acquisition solutions 
and possible new inventory management concepts to be used by the 
housing program. Participants learned about FEMA's Joint Housing 
Solutions Group and a new assessment tool, which provides a structured 
process to evaluate options and explore alternatives to manufactured 
homes. This new software evaluates housing options using several 
factors including cost, timeliness, community acceptance, range of use, 
and livability, and creates an opportunity to match needs to available 
housing units. Industry representatives showed great interest in 
contributing data and suggestions as well as reviewing evaluation 
results. FEMA is committed to working with our partners in the 
manufactured housing industry. Continued collaboration is vital to the 
success of FEMA's housing program.
    On May 16, 2007, FEMA hosted a Passenger Airline Industry meeting 
to solicit from the airline industry how the federal government might 
best make use of commercial passenger aircraft to support the transport 
of evacuees from large populated areas to safe and secure locations. 
The event provided a forum for dialogue among FEMA, its Federal 
partners, and industry on efficient and cost-effective ways to provide 
air evacuation support. The discussion covered two important issues: 
evacuation flight operations and pre-positioning of aircraft. There 
were approximately 70 participants, including air industry trade groups 
and associations who represented national and regional commercial air 
carriers; major commercial airlines; charter passenger air carriers; 
aircraft brokers and intermediaries; airport authorities; and 
commercial airline industry regulators.
    This meeting had three primary objectives aimed at addressing the 
air transport of evacuees: (1) to enhance FEMA's ability to conduct 
mass air evacuations; (2) to explore all available options in the 
commercial passenger airline industry; and 3) to establish air 
transport capacities and performance requirements. There was a general 
consensus that the industry could play a role in supporting flight 
operations to evacuate citizens prior to and immediately following a 
large-scale disaster. They have the capacity, capabilities, and 
expertise. FEMA's new burgeoning relationship with the air industry 
will continue in hopes of finding viable solutions to executing a large 
scale potential evacuation within the United States.
    The private sector is also coordinating with both FEMA and state 
emergency management officials to arrange for liaisons in state 
emergency operations centers and joint field offices. We also held a 
meeting with those three groups on June 25, to discuss these efforts 
and others and are moving forward.
    Some of our planned efforts include bringing private sector 
``executives on loan'' to FEMA to assist us in our planning, logistics 
and management reform efforts. This will allow us to improve our 
business practices, develop 21st century logistics programs and provide 
a better link to the private sector during emergencies.

    Conclusion_A Call for Continued Public-Private Communication and 
Partnership
    There will certainly be a continuing role for the private sector in 
the future. We at FEMA need to insure we are adapting to new 
conditions, adopting innovative and more effective business practices 
and addressing ever changing needs. To do this, we want to hear from 
and work with all audiences with a stake and a responsibility in 
preparedness and disaster response.
    FEMA is reaching out to our partners in other Federal, tribal, 
State, and local agencies and building better relationships with the 
non-profit and private sectors. As you are aware, the worst time to 
build relationships is during a disaster.
    In FEMA's opinion, the private sector should continue and build 
upon efforts in several key areas:
        1. Developing strong business continuity plans for all of their 
        locations and critical data centers.
        2. Develop employee support plans for when their employees' 
        office locations are damaged or if their employees have lost 
        their homes to disaster. A key element of recovery is getting 
        people back to work as quickly as possible.
        3. Engage in prudent risk management practices and have strong 
        health and safety programs.
        4. Work closely with their local emergency managers, first 
        responders and elected officials to be involved in disaster 
        planning and to build protocols to assist with recovery 
        efforts, before a disaster strikes.
        5. Through business associations continue to work with state 
        emergency management and FEMA to support mitigation activities, 
        preparedness planning, disaster response, donations management, 
        and recovery efforts.
        6. Engage private sector partners through planning, training, 
        and exercise activities. The resulting relationships and shared 
        vision can only help to strengthen our nation's preparedness.
    FEMA appreciates the relationship we are developing with the 
Chamber, BRT and BENS and believe this ongoing dialog will produce an 
improved flow of information and support before, during and after an 
event. It is the work and resources we expend on this planning now, 
before a disaster, that will pay dividends later in a faster recovery 
and a more resilient nation. We cannot wait until a disaster occurs to 
exchange our business cards and the private sector understands that it 
cannot just show up on game day and expect to play without coming to 
the practices.
    One of the most important lessons learned from the 2005 hurricane 
season is that in order to ensure a successful, robust, and coordinated 
response we must work together on all critical fronts, horizontally and 
vertically, across the full spectrum of emergency management, including 
government, private sector, non-profit organizations and our citizenry.
    Thank you for the opportunity you have afforded us today to speak 
about the new FEMA. I look forward to addressing your questions.

    Mrs. Christensen. And now I recognize Mr. Hickey to 
summarize his statement for 5 minutes.

  STATEMENT OF J. MICHAEL HICKEY, VICE PRESIDENT, GOVERNMENT 
 AFFAIRS, VERIZON; MEMBER, HOMELAND SECURITY TASK FORCE, U.S. 
                      CHAMBER OF COMMERCE

    Mr. Hickey. Madam Chair, Ranking Member Dent, good morning. 
My name is Mike Hickey. I am Vice President of Government 
Affairs for National Security Policy for Verizon.
    Industry and government partnerships start with the actions 
of individual organizations. Mr. Dent, you mentioned that 85 to 
90 percent of this country's critical infrastructure is owned 
and operated by the private sector. And as a result of that, 
the private sector must devote the resources necessary to 
secure our physical cyber and human assets.
    At Verizon, we have designed and built network facilities 
that are robust and resilient. We have embraced sound practice 
security methods and procedures. And we have provided 
leadership to industry and government partners.
    Beyond Verizon, the communications sector has a long 
history of cooperation in times of crisis. Our relationships 
are built on cooperation and trust and tied to the DHS-based 
national communications system, which is our sector-specific 
agency.
    Since 1984 we have been resident at the NCS National 
Coordinating Center for Telecommunications. And our mutual aid 
agreements have provided great strength in responding to ice 
storms, earthquakes, the wreckage of 9/11, and the devastating 
hurricanes of 2004 and 2005.
    The communications sector is one of but 18 critical sectors 
identified by DHS. The complexity of cross-sector 
interdependencies was recognized in the 2006 National 
Infrastructure Protection Plan. That plan required that 
critical sectors stand up coordinating councils and undertake 
and publish sector-specific plans, and we have accomplished 
that. And what it has done is actually increase the diversity 
of sector membership so that instead of just wireline and 
wireless companies, we now have cable satellite, undersea 
cable, public broadcasting broadcasters, and other 
organizations at the table working with us on national 
security.
    A good example of interdependent work is our work with the 
IT and financial services sector. We have undertaken a pandemic 
preparedness study, looking at last minute congestion issues, 
and we have been working on that for a number of months, and 
that soon will be published.
    Industry and government must also partner to achieve 
solutions that are meaningful, adaptable, and sustainable. What 
cannot be underestimated by policymakers is the enormous amount 
of private-sector resources that are being devoted to achieving 
greater effectiveness with government partners in securing our 
country's critical assets, and sound progress is being made.
    For instance, the National Security Telecommunications 
Advisory Committee, established in 1982, provides a clear 
example of how industry and government have advanced 
Presidential-level recommendations around national security and 
emergency preparedness communications. A recent 10-day 
communications exercise, ESF 2 exercise in New Orleans, brought 
Federal agency personnel and State and regional and local 
emergency response personnel together to exercise, to train, 
and really just to get to know each other, each other's 
responsibilities, roles, and jurisdictions.
    The National Communications System, the FCC Homeland 
Security Bureau, FEMA, NTIA and GAO participated. And private-
sector planning resources and expertise was injected to achieve 
greater depth and realism in the initiative.
    Finally, organizations such as the U.S. Chamber of Commerce 
and the Business Roundtable contribute resources to countless 
partnerships with government at all levels.
    The U.S. Chamber's Pandemic Preparedness Initiative has 
brought government and industry expertise together to plan, to 
organize, and to share critical ideas and approaches. In their 
business, Ready Business summits that Mr. Fonts referenced with 
DHS have engaged small- and mid-cap companies to encourage 
preparation for a wide range of emergencies.
    Almost 6 years have passed since 9/11. During that time, 
much has been accomplished by industry and government sectors 
in achieving more effective emergency preparedness and response 
for our country and for our citizens. Yet significant work 
remains.
    For instance, meaningful industry and government 
partnerships are created not just through solid planning, but 
by testing operational readiness and exercising together. The 
early insertion of the private sector in terms of our ideas and 
expertise and training exercises brings greater meaning to such 
programs, whether at the local or regional level or in the 
development of national exercises such as TOPOFF 4.
    Recent administrative and legislative reorganizations at 
DHS have moved functions and missions and created new 
structures and offices. For instance, the Office of Emergency 
Communications and the enhanced role of FEMA streamlined 
interagency cooperation and communication channels will help us 
in the private sector understand relationships and work more 
effectively with government. In addition, my sense is that 
FEMA, really, in order to encourage a stronger link with the 
private sector at the regional level, should find additional 
funding to make sure that private-sector outreach is out there 
and active.
    Private access to disaster sites is critical for private-
sector emergency responders to enable them to recover, repair, 
and reconstitute critical communications infrastructure 
essential for national security communications. Warren Act 
language that designates telecommunication companies as 
essential service providers entitles them to unimpeded access 
to disaster sites to the greatest extent practicable.
    Despite this helpful new designation, government 
authorities have the discretion to deny access when they 
determine it is not practicable. Thus, additional changes to 
the Stafford Act are needed to correct this.
    Improved credentialing protocols remain a priority. DHS has 
developed a national ID card system that can verify identities 
of responders who appear at an incident scene. The Department's 
ID card effort is part of a two-pronged solution for 
credentialing that also includes defining and creating 
categories of emergency responders including firefighters, 
hazardous materials teams, and private-sector workers. As this 
long-term solution is being advanced, State jurisdictions are 
developing tailored approaches to emergency credentialing.
    Industry and government partners must work to achieve 
short-term cross-jurisdictional solutions. Protocols and 
standard operating procedures for wireless shutdown and 
restoration have been established by the National 
Communications System in conjunction with industry. Because a 
disruption of even a portion of a cellular network could impact 
the public, the National Communications System has taken on the 
role of coordinating any actions leading up to and implementing 
such decisions.
    Business and government partners must now educate and 
enlist the support of local jurisdictions to implement these 
protocols.
    In conclusion, private--and government-sector partnerships 
and emergency preparedness and response remain very much a work 
in progress. Although stronger in quality and scope, much work 
remains. The real value of progress made today will be measured 
by the collective response to this country's next major natural 
disaster or terrorist attack.
    If our emergency preparedness and response yields more 
favorable results for the security of our citizenry and our 
critical assets, we will know that we have been heading in the 
right direction. At Verizon we will continue to fine-tune our 
business continuity practices, our investments, and our 
internal protocols to build upon past successes. And yet our 
ultimate success is a communications provider and corporate 
citizen will rely on the success of our external relationships 
with sector peers, cross-sector allies, and government 
partners. We need to press ahead to better target priorities, 
establish trusted relationships and address gaps. Thank you.
    Mrs. Christensen. Thank you, Mr. Hickey.
    [The statement of Mr. Hickey follows:]

                prepared Statement of J. Michael Hickey

Introduction:
    My name is Mike Hickey. I am here today representing Verizon 
Corporation as Vice President of Government Affairs for National 
Security Policy. In addition to my responsibilities at Verizon, I 
currently serve as Chair for the Communications Sector Coordinating 
Council, as Vice Chair of the Internet Security Alliance and as an 
active member of the US Chamber of Commerce Homeland Security Task 
Force. Of these organizations, the US Chamber of Commerce is unique in 
that it represents the breadth and diversity of American commerce. And 
since 2003, it has advocated for strong business engagement in matters 
relating to homeland security and emergency preparedness.
    My comments will address efforts that business has made to 
strengthen this country's economic and homeland security, where it has 
partnered successfully with government and how we might collectively 
tighten our efforts to ensure greater effectiveness in the future.

I. Tiered Approach to Operational Readiness:
    Effective industry and government collaboration starts with the 
actions of individual organizations. Where the private sector owns and 
operates 85-90% of this country's critical infrastructure, corporations 
like Verizon must dedicate the operations experience, resources and 
oversight necessary to be as self-aware and self-reliant as possible. 
We are obligated to our shareowners and customers to take the necessary 
steps to secure our physical, cyber and human assets from disruption or 
attack. We must continue to cooperate with peer companies and to 
support communications sector mutual aid obligations. We must also 
proactively address our interdependencies with other sectors to ensure 
continuity of operations in time of crisis. And we must continue to 
work with government agencies at the Federal, State, regional and local 
levels to support appropriate security and emergency preparedness 
initiatives.

        Strength from Within:
        Verizon's commitment to national security and emergency 
        preparedness--grounded in corporate policy, sound business 
        practice and hands-on experience--is long-standing and growing.
        Verizon has an established policy which requires every business 
        unit to maintain a high level of preparedness, consistent with 
        the company's unique role in furnishing critical 
        telecommunications and information services to the Federal 
        government, to State and local government, to many of this 
        country's largest corporations and to the general public. The 
        policy requires business units to establish and maintain 
        continuity of operations and management plans which may be used 
        to maintain and restore critical services under conditions 
        ranging from local emergencies to widespread disasters.
    Where individual business units have an obligation to create, 
manage, certify and test business continuity programs at the ground 
level, a governance structure has been implemented to ensure corporate-
wide effectiveness in operational and security practice.
    In order to ensure the continuity of its own operations and to meet 
the requirements of its critical customers in time of crisis, Verizon 
has:
        <bullet> Designed, built and managed network facilities that 
        are robust and resilient;
        <bullet> Embraced ``best practice'' business methods and 
        security procedures;
        <bullet> Created and tested business continuity and emergency 
        preparedness programs that have served the corporation and its 
        customers in times of stress;
        <bullet> Responded successfully to a wide range of crises; and,
        <bullet> Provided leadership strength to industry and 
        government organizations dedicated to national security and 
        emergency preparedness.

Sector Leadership and Collaboration:
    Verizon, and its peer companies within the Communications Sector, 
have a long history of cooperation in time of crisis. This history 
distinguishes the Communications Sector from most other critical 
sectors identified in the National Infrastructure Protection Plan. The 
sector personifies cooperation and trusted relationships that have 
resulted in the delivery of critical services when emergencies and 
disasters occur. The Sector Specific Agency for the Communications 
Sector is the National Communications System (NCS) within the 
Department of Homeland Security's National Cyber Security and 
Communications Division. The Federal Communications Commission is 
emerging as another important government partner for the sector.
    Historically members of the Communications Sector have been 
regulated at State and Federal levels. They have partnered closely 
among themselves and with the Federal government since the 
establishment of the National Coordinating Center for 
Telecommunications. In 1982, telecommunications industry and Federal 
Government officials identified the need for a joint mechanism to 
coordinate the initiation and restoration of national security and 
emergency preparedness telecommunications services. In 1984, Executive 
Order 12472 broadened the NS/EP role of the National Communications 
System and created the National Coordinating Center for 
telecommunications as a central public-private sector organization to 
coordinate response to emergency communications situations.
    The use of mutual aid agreements between industry signatories has 
afforded Communications Sector businesses with access to expanded 
operational capacity and resources to speed recovery. These mutual aid 
agreements worked very effectively over the years, in responding to ice 
storms and earthquakes and in the aftermath of the hurricanes that 
devastated vast numbers of Gulf Coast communities in 2004 and 2005.

Cross-Sector Relationships:
    Verizon recognizes its critical operational reliance on other 
business sectors such as electric and water and has established the 
necessary vendor relationships to meet both normal and extraordinary 
continuity of business requirements. In turn, all critical sectors are 
heavily reliant on the Communications Sector to support continuity of 
their operations.
    The complexity of cross sector independencies was recognized in the 
2006 National Infrastructure Protection Plan, resulting from Homeland 
Security Presidential Directive 7. HSPD-7 focused on the 
identification, prioritization and protection of the nation's critical 
assets. It required the development of the National Infrastructure 
Protection Plan (NIPP) and corresponding Sector Specific Plans.
    Perhaps most significantly, the NIPP encouraged the establishment 
of sector coordinating councils. In so doing, it brought greater sector 
diversity to the table and significantly advanced the institutional 
capacity of sectors to formally and proactively address cross-sector 
dependencies. As an example, the Communications and Information 
Technology Coordinating Councils operate independently, but in close 
alignment with each other.
    Currently, the Communications, IT and Financial Services Sectors 
are working with the National Communications System to review the 
potential consequences of predicted, extraordinarily high telecommuting 
levels on network access resulting from social distancing protocols 
during a Pandemic Influenza. The outcomes of this review should be 
useful to government and business planners and to the public at large. 
This typifies the utility of these newly established sector 
coordinating councils and their ability to plan and coordinate across 
sector bounds.

Partnerships with Government:
    Today's all-hazards threat environment poses significant leadership 
and resource challenges for the private sector, which as highlighted 
earlier, owns and operates the vast majority of this country's critical 
assets. Operating successfully in this environment includes being 
prepared to respond to threats that are both natural and man-made. With 
ever-changing technology and marketplace demands, business must remain 
agile in order to adjust business practices and technology solutions to 
protect its most critical assets.
    Government-imposed solutions may hinder the ability of business to 
adapt and respond effectively to the changing threat environment. So it 
becomes critical for business and government to work collaboratively 
towards solutions that are meaningful, adaptable and sustainable. The 
voluntary development of and compliance with ``best/sound practice'' 
approaches to physical and cyber security is a model that is time 
tested. It is illustrated through the work of the Federal 
Communications Commission Network Reliability and Interoperability 
Council. The NRIC is a successor to the National Reliability Council, 
first established in 1992. Through the work of seven successive 
councils, subject matter experts from business and government have come 
together to address network reliability and interoperability issues of 
concern, develop best/sound practices and encourage voluntary adoption.
    The National Security Telecommunications Advisory Committee, 
established in 1982, provides another relevant example of how the 
private sector can assist and help direct government decisions around 
national security and emergency preparedness communications. This 
advisory committee to the President brings together 30 industry chief 
executives representing major telecommunications companies, network 
providers, information technology companies, finance and aerospace 
businesses. NSTAC provides industry-based advice and expertise to the 
President on a wide range of telecommunications issues regarding 
communications, information security, information assurance, critical 
infrastructure protection and other national security and emergency 
preparedness issues.
    IN SUMMARY, this tiered approach to business continuity and 
emergency preparedness--one that builds on internal readiness and 
reliance on effective business and industry partnerships, continues to 
meet Verizon's operational and customer requirements. It has also 
advanced this country's emergency preparedness and response 
capabilities.

II. Broader Private Sector Initiatives:
    Outside of the Communications Sector, numerous trade associations 
and national organizations such as the US Chamber of Commerce and 
Business Executives for National Security (BENS) have advanced 
emergency preparedness and response initiatives with government. These 
organizations provide companies like Verizon an opportunity to confer 
with industry and government leaders, share best/sound practices, 
better understand cross-sector complexities and train and exercise with 
industry and government partners.
    The US Chamber of Commerce Homeland Security Division works to 
ensure that the Department of Homeland Security and Congress 
effectively strike the right balance between homeland security and the 
openness and mobility critical to the nation's economy. The Division is 
comprised of 170 representatives from 135 member companies, 
associations, and State and local chambers. It has advanced the 
following initiatives:
        <bullet> Ready Business Summits: Worked with DHS to engage 
        small and mid-cap companies to ensure pro-active preparation 
        for all types of emergencies. Currently hosting a series of 
        Ready Business Summits around the country in partnership with 
        State and local chambers to broaden awareness of DHS Ready 
        Business initiatives, tools and resources available for 
        emergency planning.
        <bullet> Pandemic Preparedness: Convened a pandemic planning 
        work group (45 companies) to address pandemic policy issues and 
        to provide private sector input into government strategies. 
        Currently hosting regional business pandemic preparedness 
        roundtables with DHS and the Centers for Disease Control and 
        Prevention (CDC) to discuss the role of the business in 
        pandemic planning and response. Planning legal and HR-related 
        pandemic seminars in conjunction with DHS.
        <bullet> Critical Infrastructure Protection/Information 
        Sharing: Launched a project with DHS to fully engage the 
        private sector with State homeland security directors. This 
        initiative is intended to institutionalize private sector 
        participation in State fusion centers and homeland security 
        departments and in all aspects of planning, training and 
        exercises.
        <bullet> Strategic Engagement with DHS: Currently reviewing the 
        Private Sector Annex of the National Response Plan which 
        addresses private sector coordination and integration. Invited 
        to participate in the TOPOFF 4 exercise in October. Connecting 
        Chamber members with FEMA to help strengthen the FEMA disaster 
        logistics supply chain.
        <bullet> Public-Private Partnership with the Intelligence 
        Community: Scheduling briefings with the Office of the Director 
        of National Intelligence (ODNI) on issues of mutual, long-term 
        strategic interest, but not limited to: China; global energy 
        market challenges; insider threats from terrorism; India and 
        failing states and the erosion of national sovereignty.
        <bullet> Supply Chain Security: Helped advance port and supply 
        chain security legislation (the SAFE Port Act). Will co-host, 
        together with BUSINESS EUROPE, a September transatlantic 
        security summit focused on shared security challenges such as 
        supply chain security. The summit will feature high-level 
        participation by government and business leaders in the EU and 
        the U.S.
        <bullet> Iraq Sourcing Initiative: Partnering with the 
        Institute for Defense and Business to support the DOD Task 
        Force to Improve Business and Stability Operations in Iraq.
        <bullet> National Guard and Reserve: Worked with the Commission 
        on the National Guard and Reserves to help provide businesses 
        the needed predictability to plan for when and how long their 
        employers may be called up. Coordinated with the Employer 
        Support of the Guard and Reserve (ESGR) Defense Advisory Board 
        to strengthen the compact between employers and the Reserve 
        Component.
    IN SUMMARY, these US Chamber of Commerce initiatives provide just a 
sampling of the work that is underway by the private sector to 
strengthen this country's emergency preparedness and response 
capabilities. Business Executives for National Security also provides 
effective cross-sector forums for advancement of leading edge 
approaches to these critical issues.
    What cannot be underestimated by policymakers is the enormous 
amount of private sector resources that are being devoted to finding 
solutions--with government partners--designed to achieve greater 
effectiveness in our country's security and response programs. The 
private sector has demonstrated its willingness to commit significant 
financial resources and expertise to strengthen critical business 
practices. At the same time, it has dedicated time and energy and 
expertise to its work with government partners to address emerging 
legal and regulatory considerations. A key business concern is to not 
become encumbered by unnecessary oversight and controls that may 
restrain, rather than encourage, innovative solutions to emergency 
preparedness and response.

    III. Working Towards Greater Effectiveness: Almost six years have 
passed since 9-11. During this time, much has been accomplished by 
private and Government sectors in achieving more effective emergency 
preparedness and response for our country and its citizens. Yet 
significant work remains. In the months ahead, it will become even more 
essential for partners to carefully prioritize initiatives, ensure that 
real partnership cooperation and inclusion is achieved and that 
critical pieces of ``unfinished business'' are addressed.
        Interagency and Private Sector Cooperation at the Regional and 
        Local Level: In Homeland Security Presidential Directive 5 
        (HSPD-5), the President directed the establishment of the 
        National Incident Management System (NIMS) and the National 
        Response Plan (NRP) to align Federal coordination capabilities 
        and resources into a unified, self-disciplined and all-hazards 
        approach to domestic incident management. The basic premise of 
        the NRP is that incidents are generally handled at the lowest 
        jurisdictional level possible.
    In recent weeks, a ten-day ESF-2 (the Communications Support 
Function annex to the National Response Plan) exercise, training 
program and technology demonstration took place in New Orleans. It was 
designed to bring Federal agency personnel and State, regional and 
local emergency response personnel together to exercise, train and 
become better acquainted with agency roles, responsibilities and 
resources. It also brought in the private sector to help plan and 
participate in an active and meaningful way.
    The program mustered personnel and resources from agencies such as 
the National Communications System, the Federal Communications 
Commission's Homeland Security Bureau, FEMA and GAO. Other agencies had 
more limited representation. The initiative achieved success from many 
standpoints--especially in bringing critical Communications Sector 
representatives together to establish relationships and to clarify 
roles and responsibilities.
    This approach is crucial--especially as Federal agency personnel 
work to establish a lasting presence at the local and regional level. 
The private sector must be viewed as intrinsic to such training and 
exercise programs, not as an understudy. The private sector resources 
and expertise brought to bear in the New Orleans exercise made that 
program more meaningful to all.
    And the presence of key federal agencies encouraged a better 
understanding of how Joint Field Office programs and leadership can 
work together in time of crisis.
    From a broader perspective, meaningful business and government 
partnerships are created not just through dialogue and planning, but by 
testing operational readiness and exercising together. The early 
insertion of private sector ideas and expertise in training exercises 
brings greater meaning to such programs--whether at the local and 
regional level or in the development of national exercises such as 
TOPOFF 4.
    Coordinated Private Sector Outreach: The Department of Homeland 
Security has been well-served by both its Private Sector Liaison office 
and by the Infrastructure Protection Partnership and Outreach office. 
These offices have been visible and accessible, while being proactive 
in bridging the private sector with the work of the Department on 
issues ranging from information sharing to pandemic planning. At the 
same time, they have worked with limited resources on an unlimited 
stage. As a result, their combined impact has been educational in 
nature, rather than being operationally focused.
    As additional resources are devoted to standing up Department 
programs at the regional level in support of Joint Field Office 
requirements, agencies such as FEMA must create stronger private sector 
outreach and coordination capacity that will encourage and sustain 
private sector participation over the long term. Such efforts will 
yield stronger private sector interest and resources that can be 
leveraged in agency emergency preparedness and response programs.
    I am happy to report that FEMA Administrator, David Paulison and 
his regional administrators are taking this public/private partnership 
seriously. As an example, senior leaders from Verizon's regional 
offices have recently met with the senior leadership from the FEMA 
Region 1 (Boston) and FEMA Region 6 (Denton, TX) offices in an effort 
to further develop already-existing disaster preparedness 
relationships. The goal of these meetings has been for FEMA to better 
understand Verizon's capabilities in time of crisis so that the public 
sector has a better knowledge of what the private sector has to offer 
by way of response, recovery and restoration capabilities. Likewise, 
Verizon has been able to more clearly understand FEMA's operational 
needs, as a result of these discussions.
    Renewed Focus on ``Unfinished Business'': Much has been 
accomplished by business and government partners to address emergency 
preparedness and response issues raised by actual events. In some 
instances though, jurisdictions have established localized ``model'' 
programs to improve response capacity that are not adopted in 
neighboring jurisdictions. In other instances, broader solutions have 
been developed that have failed to garner the necessary multi-
jurisdiction to make them effective.
        Access and Credentialing: Priority access to disaster sites is 
        critical for private sector emergency responders to enable them 
        to recover, repair, and reconstitute critical communications 
        infrastructure essential for NS/EP communications. There is a 
        provision in the WARN Act designating telecommunications 
        companies as ``essential service providers,'' which entitles 
        them to unimpeded access to disaster sites ``to the greatest 
        extent practicable.''
    However, because such access will only be allowed to the greatest 
extent possible, government authorities have the discretion to deny 
access when they determine it is not ``practicable.'' It is unclear 
whether such discretion can be challenged, and this provision is not a 
panacea to the access problems exposed in the aftermath of Katrina. 
This priority issue requires additional work effort for both business 
and government partners. Moreover, as the Katrina experience indicated, 
telecommunications and other utility providers need resources as well 
as access to effectively restore services. Additional changes to the 
Stafford Act are needed to correct this.
    Credentialing is a related issue that requires additional 
attention. At the Federal level, DHS has developed a national 
identification (ID) card system that can verify identities of 
responders who appear at an incident scene. The Department's ID card 
effort is part of a two-pronged solution for credentialing that also 
includes defining and creating categories of emergency responders, 
including firefighters, hazardous materials teams, and private sector 
workers. While this is viewed as a long term solution to emergency 
credentialing, state jurisdictions are developing localized approaches. 
Business and government partners must press ahead now to achieve cross-
jurisdictional, short-term solutions. Wireless Shutdown and Restoration 
Protocols: Given the rise in terrorist activity in the past few years, 
and an incomplete understanding of the technology involved in such 
activities, certain government authorities have, in certain 
circumstances, wondered whether the need may arise to disrupt or 
disable access to cellular service within a particular geographic area 
in the name of public safety. Because a disruption of even a portion of 
a cellular network would impact the public, the National Communications 
System (NCS) has taken on the role of coordinating any actions leading 
up to and implementing such decisions. Business and government partners 
must now educate and enlist the support of local jurisdictions to 
implement the protocols.
    Better Coordination in Crises: The Katrina experience demonstrated 
the need for improved coordination, cooperation and communication at 
and among all levels of government. Recent administrative and 
legislative reorganizations at DHS have moved functions and missions 
across components and created new structures and offices (for example 
the Office of Emergency Communications, enhanced role of FEMA etc.). It 
remains to be seen if all these changes will be effectively and 
efficiently implemented by the time the next disaster strikes.
    IN SUMMARY, private and government sector partnerships in emergency 
preparedness and response remain a work in progress. Although stronger 
in quality and scope, much work remains. The real value of progress 
made to date will be measured by the collective response to this 
country's next major natural disaster or terrorist attack. If our 
emergency preparedness and response yields more favorable results for 
the security of our citizenry and our critical assets we will know that 
we have been heading in the right direction.
    At Verizon, we will continue to fine tune our business continuity 
practices, our investments and our internal protocols to build upon 
past successes. And yet our ultimate success as a communications 
provider and corporate citizen will rely on the success of our external 
relationships with sector peers, cross-sector allies and government 
partners. We need to press ahead to better target priorities, establish 
trusted relationships and address gaps.

    Mrs. Christensen. I now recognize Mr. Howard to summarize 
your statement for 5 minutes.

  STATEMENT OF JOHN HOWARD, SENIOR VICE PRESIDENT AND GENERAL 
                  COUNSEL, W.W. GRAINGER, INC.

    Mr. Howard. Thank you. Madam Chair, Ranking Member Dent, 
members of the subcommittee, it is a privilege for me to appear 
here today on behalf of W.W. Grainger, Inc. and the Business 
Roundtable to address the role of the private sector in 
strengthening emergency preparedness and response.
    The subcommittee is to be commended for its vigilance in 
pursuing more effective emergency response and preparedness and 
promoting the role of the private sector. This is important 
work in an era of enormous challenge. Richard Keyser, Chairman 
and CEO of Grainger is also Chairman of the Business 
Roundtable's Partnership for Disaster Response. Through this 
initiative, some of the leading companies in the United States 
have joined together to help coordinate resources at the 
private sector so that they can respond more effectively to 
disasters both large and small.
    The Business Roundtable seeks to leverage the resources and 
expertise of its members to create a more efficient response to 
disasters. The Roundtable stresses that the business community 
must take three steps: prepare, respond and recover. These 
three things are necessary to assist the first responders and 
the organizations that provide relief and help rebuild. This 
mission is critical to the well-being of the Nation's citizens 
and the vitality of our economy.
    My testimony addresses Grainger's and the Business 
Roundtable's efforts to assist emergency preparedness and 
response. Grainger provides small and large businesses, 
institutions, d government agencies a broad range of products 
and supplies--at last count, more than 160,000 different 
products that they need to run their businesses and maintain 
their operations. Whether it be tools or hardware, lighting or 
pumps, motors or safety devices, our day-to-day objective is to 
help our customers save time and money by providing them the 
right products to keep their facilities up and running.
    While each customer has a different problem to solve, every 
one of our customers shares the same requirement. When they 
need one of our products, they need it right away. We have over 
17,000 employees and over 600 branches and distribution centers 
to accomplish this goal. Our commitment to assist emergency 
response is directly related to our core business, delivering 
the right products when and where they are needed.
    Grainger and other members of the Business Roundtable have 
watched a world that has experienced the devastation and horror 
of terrorist attacks and natural disasters. Our customers, our 
communities, and our employees are the ones affected. For 
Grainger and the Business Roundtable, we understand how 
critical it is to get the right supply to the first responders. 
This cannot be left to chance.
    An extensive amount of planning and work, preparedness, if 
you will, is necessary to make this happen. It is because the 
experience of the Roundtable launched the Partnership for 
Disaster Response. Through the partnership, we were able to 
capitalize on the private sector to accelerate on-the-ground 
relief and recovery activities. The partnership fosters public-
private collaboration to prepare for the health, social, and 
economic challenges created by disasters.
    The partnership also works to ensure that the business 
community's response helps address the community's most 
critical needs by mobilizing the unique and diverse assets of 
our member companies. At Grainger, when a community is hit by 
disaster, we work with State and local governments and FEMA to 
get supplies to first responders. We also work closely with the 
American Red Cross. Since 2001, Grainger has partnered with the 
Red Cross, other relief organizations, and local governments to 
provide financial support and essential products to disaster 
areas.
    We are a founding sponsor of the American Red Cross Ready 
When the Time Comes program. Through this program, local Red 
Cross chapters work with the business community to recruit and 
train corporate employees as volunteers in advance of a 
disaster. When a disaster strikes, the Red Cross can then 
mobilize this preexisting network of well-trained volunteers. 
So, whether distributing water in severe heat waves, providing 
meals, assisting families, or participating in emergency 
drills, we are proud of all the employees both at Grainger and 
at other companies who volunteer for this very important work.
    To date, the Red Cross is training Grainger employees and 
major companies. We are particularly pleased more than 60 
companies have now joined this effort, and today we have more 
than 1,600 employees who have been trained to respond to help 
their local communities when a disaster strikes. These 
volunteers truly are ready when the time comes.
    Grainger's product line, our distribution facilities, and 
our extensive knowledge base makes it so that we are quickly 
able to bring expertise and assistance where needed.
    We have several event-specific plans to mobilize internal 
and external resources to assist first responders and relief 
organizations. These plans focus on two primary objectives: 
handling incoming requests and managing logistics to distribute 
the unit supplies as quickly as possible.
    In all cases, FEMA, State and local governments, and first 
responders receive first priority. Grainger's efforts include 
research on products' critical and specific emergencies. For 
example, after a flood we know that pumping equipment will be 
vital. During a wildfire, safety and fire-retardant material 
will be at a premium. We work closely with the manufacturers 
who supply these products to secure and load the supply chain 
to make sure that we can respond quickly to provide the items 
at highest demand. In some cases, we ask our suppliers to carry 
extra inventory or even reserve manufacturing capacity 
specifically for these vital products.
    During and after an emergency, we provide special services. 
Our branches stay open 24 hours a day, and additional personnel 
are brought in from around the country to take orders, assist 
customers, and load trucks. Within hours of an emergency, 
trailers containing these critical products are dispatched to 
support the relief effort.
    Here, our advanced planning pays off. The contingency plans 
with our employees and our suppliers allow us to expedite tools 
and supplies to the sites. Based on our experience, success in 
getting the right products to an emergency location requires 
three factors: first, processes that are flexible and user 
friendly; second is an understanding of the range of emergency 
circumstances and knowing what products will be required; third 
is secured reliable supply chains.
    It is these in types of efforts that the Business 
Roundtable's Partnership for Disaster Recovery brings to the 
private sector so it can put resources to work in time of need. 
In October 2006, the partnership launched a comprehensive 
information clearinghouse to help the business community better 
prepare and respond to disasters. The clearinghouse is one way 
to show companies how to integrate disaster planning into the 
business continuity plans. The partnership also provides 
guidance on ways to communicate with employees about disaster 
preparedness.
    Again, advanced planning is one way to help ensure that 
there are effective disaster relief and recovery efforts. With 
the commencement of the most current hurricane season 
Grainger's CEO Dick Keyser communicated with the CEOs of all 
160 Roundtable member companies, encouraging them to use the 
partnership's resources to be better prepared to respond to 
disasters.
    Highlighted was a need for advanced planning and educating 
the workforce about what they can do as individuals. It is 
critical that all of us--employees, businesses and 
communities--understand what it takes to be ready when the time 
comes.
    This completes my statement. Grainger and Business 
Roundtable share your commitment to enhancing emergency 
preparedness and response. We look forward to, working with the 
subcommittee. Thank you.
    Mr. Cuellar. [Presiding.] Thank you again for your 
testimony. We appreciate your being here.
    [The statement of Mr. Howard follows:]

                     Prepared Statement John Howard

Introduction
    On behalf of both W.W. Grainger, Inc. and Business Roundtable's 
Partnership for Disaster Response, I would like to thank the 
subcommittee for this opportunity to talk with you today.
    W.W. Grainger, Inc. is a leading broad line supplier of facilities 
maintenance products serving businesses and institutions in the United 
States, Canada, China, and Mexico. Through a highly integrated network 
including nearly 600 branches, 18 distribution centers and multiple Web 
sites, Grainger's employees help customers get the job done, saving 
them time and money by having the right products to keep their 
facilities running.
    In May of this year, Richard Keyser, Chairman and CEO of W.W. 
Grainger, Inc, became chairman of Business Roundtable's Partnership for 
Disaster Response, an initiative to coordinate the resources of the 
private sector to respond more effectively to disasters.
    Business Roundtable is an association of chief executive officers 
of leading U.S. companies with over $4.5 trillion in annual revenues 
and more than 10 million employees. The Roundtable launched the 
Partnership for Disaster Response a little more than two years ago 
following the devastating tsunami in Asia and the subsequent outpouring 
of contributions from the business community. Even though companies 
contributed generously--cash, products, services and expertise--
Roundtable CEOs saw a need to create a more coordinated effort to 
prepare for and respond to catastrophic disasters. Twenty-five CEOs--
from across various industries--have joined forces as members of the 
Partnership for Disaster Response Task Force to leverage their 
corporate resources and expertise to create a more efficient response 
to disasters.
    The Partnership aims to capitalize on the many capabilities of the 
private sector to accelerate on-the-ground relief and recovery 
activities to help save lives. The Partnership works to foster public-
private collaborations to prepare for the health, social and economic 
burdens created by disasters in the United States and abroad. The 
Partnership also works to ensure that the business community's response 
efforts address a community's most critical needs, by mobilizing the 
unique and diverse assets of our member companies.
    The U.S. private sector, which owns and operates nearly 85 percent 
of the nation's critical infrastructure, has myriad resources useful in 
disaster preparedness and critical for disaster response. These range 
from basic necessities such as food and safe drinking water to 
communications and energy networks, as well as logistics and technical 
expertise.
    Grainger's participation in the Partnership is particularly fitting 
given Grainger's product mix and distribution capabilities. Grainger 
helps customers--primarily businesses--find the right products to keep 
their facilities operating. We do this every day as well as in the 
event of an emergency. Grainger can move critical items into hard-hit 
areas fast. Our support helps customers get back to business--and that 
helps bring their communities back too. We know that getting commerce 
up and running is vital to a community's recovery from a disaster.

Public/Private Collaboration
    Typically, in a disaster Grainger works together with state and 
local governments and FEMA around disaster situations to get needed 
product into first responders' hands.
    Our company works closely with the American Red Cross as well, 
providing them products and financial support. Since 2001, Grainger has 
partnered with the Red Cross to provide more than $4 million worth of 
financial support and essential products. Grainger makes significant 
product donations to relief organizations beyond the American Red Cross 
and to municipalities affected by disaster.
    In addition to philanthropy, we are especially proud that Grainger 
is the national founding sponsor of the American Red Cross Ready When 
the Time Comes (RWTC) Program. Through this program, local Red Cross 
chapters collaborate with businesses in their area to recruit and train 
corporate employees as volunteers. When a disaster strikes, the Red 
Cross can quickly mobilize this network of well-trained corporate 
volunteers. Grainger both promotes the program to other companies and 
arranges for our own employees to be trained in disaster relief.
    Through Ready When the Time Comes, Grainger employees and their 
family members around the country, ages 18 and older are trained as 
volunteers to help support local disaster relief efforts. These 
corporate volunteers staff call centers at their local Red Cross 
chapter, assist with mass care sheltering and feeding operations, and 
conduct damage assessments. In addition, Grainger calls upon other 
companies to get involved with corporate volunteer programs in disaster 
relief. The Red Cross then trains these volunteers.
    To date, The Red Cross has trained more than 700 Grainger employees 
as volunteers in Chicago, Denver, Tampa, St. Louis, Kansas City, MO, 
Houston, New York, Baltimore, Orange County, CA and San Francisco.
    We are pleased that more than 60 companies have joined this 
innovative volunteer program and today more than 1,600 employees have 
been trained to respond to help their local communities when a disaster 
strikes.
    For example, Grainger's and other companies' employees have been 
called upon to:
        <bullet> Distribute bottled water following a severe heat wave 
        in Baltimore in June 2007.
        <bullet> Staff a shelter and serve meals and snacks from an 
        emergency response vehicle in New York, following storms in 
        April 2007.
        <bullet> Assist families in Kansas City during ice storms and 
        again following a chemical fire in January and February 2007.
        <bullet> Staff phone centers in Chicago and Denver to answer 
        questions from those seeking support and information following 
        Hurricane Katrina in September 2005.
        <bullet> Participate in a state bioterrorism response exercise 
        in Illinois in 2003.
Planning to Bring Business and Communities Back
    Grainger serves approximately 1.8 million businesses and 
institutions across North America and they operate a range of 
facilities. Many of the products we carry are essential for our 
customers' preparation for and response and recovery efforts after a 
disaster.
    Grainger has developed robust plans for almost every type of 
emergency situation--winter storms, floods, earthquakes, tornadoes, 
power outages, wildfires and hurricanes--that causes a disruption of 
business. We help our customers plan to protect their employees and 
their business with the necessary supplies.
    In the event of a disaster or an emergency, Grainger has developed 
a series of event-specific plans to quickly mobilize internal and 
external resources to assist communities in trouble.
    Grainger's workforce is trained in our procedures to first and 
foremost locate and ensure the safety of our employees and secure 
Grainger's infrastructure. Then, our employees reorganize into cross-
functional teams designed to serve our customers, especially the many 
emergency responders, municipalities and critical institutions such as 
hospitals.
    Our teams focus on two primary areas: handling incoming requests 
from customers and managing logistics in order to quickly distribute 
needed products. In all these cases, requests from FEMA, municipalities 
and first-responders are given priority.
    During and after an emergency, Grainger provides special services 
to our customers and their communities. The Grainger branches 
frequently stay open 24 hours (unless curfews are imposed by local 
authorities) and additional personnel are brought in to take orders, 
assist customers at the counter, and load trucks. Our Call Centers are 
able to accept phone orders 24 hours a day. Within hours of an 
emergency, trailers containing critical products are dispatched to 
support the relief effort. Contingency plans with our suppliers allow 
us to expedite additional equipment to the sites.
    Given our line of business, we must be flexible and nimble in 
working with our customers to understand and address the unique set of 
challenges a disaster wreaks on their business. For example, after 
Hurricane Katrina, Grainger expedited equipment and supplies to 
government agencies and local companies to help repair an 
infrastructure that had been devastated.

Making Sure our Products are Ready
    Grainger has conducted detailed research on products that are 
critical after specific types of disasters. For example, after a flood, 
pumping equipment is vital. After a wildfire, safety and fire retardant 
materials are at a premium. Grainger works closely with manufacturers 
to secure and load the supply chain to ensure that we can respond 
quickly to provide items in high demand. In some cases we have asked 
our suppliers to carry inventory or reserve manufacturing capacity for 
vital products.
    Grainger has been successful in getting the right products to just 
about any location in the country facing an emergency, sometimes within 
a matter of hours, because of three key factors. First, we have the 
right processes in place. Next, we have done the research to know what 
products will be needed. Finally, we plan well so have secured supply 
chains that enable us to quickly and efficiently distribute our 
products.
    A good example of how we work concerns the gasoline powered 
portable generator, a piece of equipment in high demand after a 
disaster or in an emergency, particularly a power outage. The generator 
is essential to support businesses, hospitals and emergency shelters. 
Grainger worked directly with Briggs and Stratton, the company that 
manufactures the generator to secure the supply chain on the equipment.
    This past winter, that forethought and collaboration with Briggs 
and Stratton enabled Grainger to move more than 2,000 generators to 
customers in St. Louis within 24--28 hours of power outages due to ice 
and snow storms.
    Grainger's expertise in disaster response has been honed over time. 
We learned quite a bit during and after the terrorist attacks of 
September 11, 2001 and we strengthened our own emergency planning 
process after that experience. We supplied a crew of more than 30 
people working hand-in-hand with local providers and FEMA and local 
authorities to get supplies to emergency workers and rescuers at the 
World Trade Center site.
    When we do have some notice about a disaster, like a hurricane, 
Grainger pre-positions trailers of product including some items that 
Grainger does not typically carry. During hurricane season, Grainger's 
Jacksonville distribution center is a hub of activity. Grainger tracks 
weather conditions and conducts pre-storm conversations on a daily or 
sometimes hourly basis so we know when to begin loading trailers and 
stocking products including pallet-loads of water, large emergency 
generators, first aid kits, cots, blankets and emergency food rations.
    The Partnership in Action_Providing Resources and Information
    The Business Roundtable's Partnership for Disaster Response and its 
companies serve as a valuable resource, helping companies and their 
employees better prepare for and respond to disasters. In October 2006, 
the Partnership launched www.respondtodisaster.org, the first 
comprehensive clearinghouse of information to help the business 
community better prepare and respond to disasters. The Web site 
features commonly requested information and valuable tools on how 
companies can better integrate disaster planning into their business 
continuity plans, communicate to their employees about disaster 
preparedness and response and contribute effectively to disaster relief 
and recovery efforts.
    Dick Keyser, Grainger's CEO and the Chairman of the Partnership, 
sent a letter to the CEOs of all 160 Roundtable member companies on 
June 1, 2007 the start of hurricane season, encouraging them to use the 
resources the Partnership had developed to help the business community 
more effectively prepare and respond to disasters. He highlighted the 
fact that advance planning and educating a company's workforce about 
preparedness can help protect employees, businesses and communities and 
reduce the impact of a disaster.

Conclusion
    Thank you again for this opportunity to talk with you about the 
work of Grainger and the Partnership for Disaster Response. We look 
forward to continuing to work with the Administration, Congress and 
state and local government to enhance our nation's disaster response 
system. Working together--business, government, relief agencies and 
many others--we will continue to be vigilant in preparing our 
businesses, our employees and our communities for a disaster.

    Mr. Cuellar. At this time, I will recognize Mr. Dinvaut, 
Sr. to summarize his statement for 5 minutes.

   STATEMENT OF BARRY DINVAUT, SR., CEO, DINVAUT'S TRUCKING 
    SERVICE INC.; MEMBER, NATIONAL BLACK CHAMBER OF COMMERCE

    Mr. Dinvaut. Good morning, Mr. Chairman and members of the 
subcommittee. My name is Barry Dinvaut, Sr. I am the President 
and Chief Executive Officer of Dinvaut's Trucking Service. 
Thank you for inviting me to Washington in order to testify 
before you on the state of recovery of New Orleans and the gulf 
coast.
    Dinvaut's Trucking Service has enjoyed serving businesses 
in the State of Louisiana for 30 years. Based in New Orleans, 
DTS has grown from a small trucking company doing general 
hauling and sugarcane to a premiere hauling and demolition, 
hazardous waste transportation and construction firm. For 10 
years DTS has been serving a major part of the Federal sector 
with the help of the Small Business Administration under the 
8(a) certification program. We have extensive experience 
working for many parts of the Federal Government, including the 
Environmental Protection Agency, the Army Corps of Engineers, 
Federal Emergency Management Agency and the Department of 
Homeland Security. These jobs include but are not limited to 
Gentilly Street, EPA Superfund job working with the Corps of 
Engineers.
    Since Katrina I have also done debris hauling, demolition 
and goods removal for the Environmental Chemical Corporation, 
ECC, who is a contractor for FEMA. This is an ongoing project 
which supports the recovery of the lower Ninth Ward and the 
return of New Orleans citizens to their homes.
    Throughout the years, the business of Dinvaut's Trucking 
Service has enjoyed the support of many of the organizations 
which includes the Black Chamber of Commerce, the Louisiana 
Economic Development, LAPAC, City of New Orleans, National 
Association of Minority Contractors, and SBA.
    We are also certified and permitted with the following 
agencies: the Interstate Commerce Commission, USDOT, Federal 
Highway Commission, EPA Superfund, and Louisiana Department of 
Environmental Quality.
    Although Dinvaut's Trucking Service was severely impacted 
by the events of Hurricane Katrina, we resumed operation in 
less than 2 months after the storm. Working with FEMA in the 
recovery of the city of New Orleans has awarded me with a great 
deal of knowledge and experience.
    Compared to their first arrival to the present, FEMA has 
shown major improvement in the cleanup and recovery of New 
Orleans. Since the immediate aftermath of Hurricane Katrina, 
FEMA has continued to bring more companies with valuable real-
world experience. The standards for companies to which FEMA 
awards their contracts have increased substantially since their 
first arrival in New Orleans. The information available to the 
public has also greatly increased, both in amount and in 
quality.
    Another improvement by FEMA is the addition to new 
programs, scheduling the debris pickup into different areas 
other than the Ninth Ward. My experience with FEMA for the most 
part has been positive. The people to whom I have interacted 
with FEMA give me the impression that they are trying their 
best to make the recovery process go as smoothly as possible.
    While FEMA has made many improvements since they have come 
to New Orleans, there are some things that they could still 
improve on. One of the major improvements is to hire local 
small business firms from the greater New Orleans area and from 
southern Louisiana in general. I think that the solution to 
many of the problems that occur with the recovery could be the 
resolution with better communication. There seems to be 
complications wherever people need to communicate between the 
Federal, State, and local levels. My advice would be to try to 
reduce more of the red tape, improved communications between 
levels of government and improved communications between 
government and the public.
    In closing I would like to thank the subcommittee for their 
time today. I would be glad to answer any questions.
    Mr. Cuellar. Mr. Dinvaut, again I want to thank you very 
much for your testimony, and I want to thank all the panel 
members for being here.
    [The statement of Mr. Dinvaut, Sr. follows:]

               Prepared Statement of Barry M. Dinvaut Sr.

    Good Morning, Mr. Chairman and members of the Subcommittees
    My name is Barry M. Dinvaut Sr., I am the President and Chief 
Executive Officer of Dinvaut's Trucking Service. Thank you for inviting 
to Washington in order testify before you about the Army Corp, and the 
state of recovery in New Orleans and the Gulf Coast.
    Dinvaut's Trucking Service Inc. has enjoyed servicing businesses in 
the State of Louisiana for 30 years. Based in New Orleans, DTS has 
grown from a small trucking doing general hauling and sugar cane to a 
premier haul, demolition, hazardous waste transportation, and 
construction firm.
    For 10, DTS inc. has been servicing the major part of the federal 
sector with the help of Small Business Administration under the 8A 
certification program. We extensive experience working for many parts 
of the federal government including, the Environmental Protection 
Agency, the Army Corp of Engineers, the Federal Emergency Agency, and 
the Department of Homeland Security. These jobs include, but are not 
limited to the Gentilly St. EPA Superfund job, working with the Army 
Corp on the Algiers levee project, the Violet, LA levee project, the 
Barataria pumping stations, the Airline/310 levee project, the Williams 
Blvd. levee embankment, and the Intercoastal levee project.
    Since Katrina, I have also done debris hauling, demolition, and 
white goods removal for the Environmental Chemical Corp, (ECC) who is a 
contractor for FEMA. this is an ongoing project which supports the 
recovery of the lower ninth ward and the return of New Orleans citizens 
to their homes.
    Throughout the years of business Dinvaut's Trucking service has 
enjoyed the support of many organizations, which include Black Chamber 
of Commerce, Louisiana Economic Development, LAPAC, City of New 
Orleans, Natl. Association of Minority Contractors, and SBA. We are are 
also certified and permitted with the following agencies, Interstate 
Commerce Commission, USDOT--Federal Highway Commission, EPA--and the 
Louisiana Dept. of Environmental Quality.
    Although Dinvaut's Trucking Service was severely impacted by events 
of hurricane Katrina, we resumed operations in less than 2 months after 
the storm.
    Working with FEMA in the recovery of the city of New Orleans has 
awarded me with a great deal of knowledge and experience. Compared to 
when they first arrived to the present FEMA has shown major improvement 
in the clean up and the recovery of New Oreleans. since the immediate 
aftermath of Hurricane Katrina FEMA has continued to bring on more 
companies with valuable real world experience. The standards for 
companies to which FEMA awards their contracts to have increased 
substantially since they first arrived in New Orleans. The information 
available to the public has also greatly increases, both in amount and 
also in quality. another improvement by FEMA is the addition of new 
program scheduling for debris pick in different areas other than the 
ninth ward. My experiences with FEMA for the most part have been 
positive ones. The people with whom I interact with at FEMA give me the 
impression that they are trying their best to make the recovery process 
go as smoothly as possible.
    While FEMA has made many improvements since they have come to New 
Orleans, there are some things in which they can still improve on.One 
of the major improvements is to hire more local small business firms 
from the greater New Orleans area and from southern Louisiana in 
general. While these small businesses have had success in procuring 
work for FEMA, it seems that many times that they are qualified 
companies who are pushed aside for the big out of state companies who 
know nothing about Louisiana and it's culture and have no stake in the 
recovery of this city or this state.
    I think that the solution towards many of problems that occur with 
the recovery could be resolved with better communication. There seems 
to be complications whenever people need to communicate between the 
federal, state, and local levels. My advice would be to try and reduce 
some of the red tape, improve communications between all levels of the 
government, and improve communications between the government and the 
public.
    In closing I would like to thank Mr. Chairman and members of the 
subcommittees for their time today. I would be glad to answer any 
questions about FEMA, New Orleans, or explain anything I have just 
said.

    Mr. Cuellar. I would remind each member that he or she will 
have 5 minutes to question the panel. I would now recognize 
myself for questions.
    First set of questions will go to Mr. Martinez-Fonts and to 
Mr. Bourne. What are the Department's plans for pursuing 
credentialing and access programs for private-sector essential 
personnel during disasters? As you know--you know, let's just 
put ourselves in a particular situation. You have got somebody 
from the private sector wants to come in. Police will stop and 
say, oh, can't let you in. And that, of course, disrupts the 
overall strategy in trying to get the private sector involved.
    So could both of y'all just go ahead and address that 
question as how do we make that work so we can get the private 
sector to play a more timely, more appropriate role during 
disasters?
    Mr. Bourne. Mr. Chairman, I will take the first swing at 
that. One of the things that FEMA has been working on with our 
friends at the Department and State and local levels is on 
formalizing a credentialing process, a concept, basically 
common protocol for credentialing. Part of the issue is that 
for the vast majority of the country, it is the local 
governments that actually know who should be there, who 
shouldn't be there, especially when 90 percent of the disasters 
are locally based.
    What we need to do is to create a platform, an 
understanding of common resource typing, common protocols for 
how credentialing should be done. Certainly the Federal 
Government can't maintain a gigantic database of everybody who 
could potentially respond and be credentialed. It is important 
that local and State governments do a lot of this planning.
    FEMA's business management systems under the NIMS program 
has specifically been developing for the last 2-1/2 years a 
credentialing system. What we started off is resource typing, 
resource typing of emergency response assets first, because 
those are going to be first on the scene. We have got over 174 
resource types and types of teams and equipment and services 
type.
    They are now moving forward into the next phase which will 
also include special resource assets that include private-
sector offerings, whether it be engineers or, you know, medical 
supplies, other types of things that can be brought in so that 
there is a common lexicon.
    Part of the problem is--and I come from Massachusetts, and 
where I grew up, an ambulance was called a rescue squad. You go 
to another part of the country and a rescue squad is a heavy 
rescue vehicle with a jaws-of-life, and they don't carry 
patients.
    We didn't even have within the emergency service community 
a common lexicon for the types of resources we bring in under 
mutual aid during disasters. We have begun that process, 
completed significantly the emergency management first 
responder portion of it, and now we are working closely to go 
to the next phase on the resource typing for other 
nongovernmental assets. That leads us to a common understanding 
that can allow for credentialing to exist.
    What is credentialing? Essentially it is a way of 
understanding that the resources that are arriving at the 
scene, one, belong there; two, are what they say they are. Do 
you have, you know, the training, the certification, the 
understanding of the job that you are being asked to perform? 
But it is important--and we had stressed this--that State and 
local governments need to think in their planning about what 
kind of resources they are going to be calling through mutual 
aid, making sure that the business community ties into that 
planning early on so when those resources are tapped, they know 
what is coming, they are the right people, they are showing up 
with the right stuff.
    The harder part is the unintentional or the best of 
intentioned volunteer. And I use that in the broader scope. 
Business communities, people, they just send things. That is 
the hard part in getting a handle on that. What we have done to 
try to address that is work with the Aidmatrix Foundation to 
funnel and channel those donational resources so that they are 
known to all of the folks in the emergency management chain; 
what is available, where it is, and who would be providing it. 
And that should help also in making sure that the proper access 
to disaster scenes is handled.
    You want to add anything to that?
    Mr. Martinez-Fonts. Sir, there is probably very little I 
could add to that great explanation. But a great example is 
within New York City. Sadly, from the lessons learned after 9/
11, the city of New York, Office of Emergency Management, has 
done just an outstanding job at making sure that they can get 
businesses back into--whether it is Verizon needs to repair 
something for the entire downtown Manhattan or the Citibank 
group needs to get people in their building. So it is just an 
example of what has worked.
    Mr. Cuellar. And I can understand, Mr. Bourne and Mr. 
Martinez-Fonts, Jr., that we should let the locals address a 
lot, but I still think we--probably like you said--have some 
common protocol.
    In developing those common protocols, I think you hit it on 
the nail. You need to know who must be there or should be 
there, and how do we know that that person is supposed to be 
with Verizon or some other sector? Do you have some sort of 
draft that we can start looking at?
    Mr. Bourne. I will go back to our folks and we will get the 
latest update on exactly where they are on the process and the 
materials that they are using to sit down with the private-
sector community to start fleshing out the rest of this 
resource typing.
    We are also actively engaged with the Department on the 
larger issue of identification, and that involves the 
Secretary's Office, with Kathy Kraninger and her folks that are 
working on this broader credentialing issue for transportation 
workers and others. What we want to do is not create multiple 
systems, but a basic framework that can serve folks. And we 
will get you that information.
    Mr. Cuellar. OK. Do you have a timetable when you all will 
get this done? I think you mentioned 2-1/2 years.
    Mr. Bourne. That has been the first--that has been for the 
vast majority of the resource typing that has been done today. 
We hope to complete as much of the resource typing as we can 
over the next year. Part of the issue is as technology changes 
and new assets and new capabilities are brought to bear, we 
have to make sure that it gets added to the typing and 
credentialing lexicon that we are developing. So that will 
always be an ongoing process. But a common protocol for 
credentialing for those that might respond to a disaster is 
probably at least a year away.
    Mr. Cuellar. OK. Go ahead and submit what you have to the 
committee so Mr. Dent myself and the rest of the committee can 
look at it, number one.
    Number two, on the common protocol, Eagle Pass is very 
different from New York City--Eagle Pass, Texas. So give us 
your perspective also as to how you are addressing the small 
communities versus the big communities also.
    Also, you are including the business--you are not doing 
something and here it is, from step one, they are----
    Mr. Bourne. No. Every credentialing effort, every resource 
typing effort that has been done to date has been made up of 
work groups that involve the experts in the field in which we 
are trying to do the resource typing or credentialing. There 
have been a number of meetings that have been held at 
association meetings of various organizations, first responder 
groups, et cetera.
    We did a large meeting in Seattle with the business 
community as well to try to look at this issue of credentialing 
for business and how they can get engaged in understanding the 
national response plan; and the private sector, the role that 
they can play in that.
    One of the things that has come out of that is the private 
sector's adoption of incident command and understanding of it. 
That is not something that they had used before, but they 
realized that it is a recognizable and understandable way to 
plug into an emergency response.
    And we also have been developing standard operating 
procedures for our joint field offices so that they can take in 
input from the private sector at a real operational level, not 
just at a Washington, D.C. level, where we might get inundated. 
The folks working in the field need this information. And they 
are working on that as well. So it is an ongoing collaborative 
process with the Chamber and others to try to do this.
    Mr. Cuellar. Appreciate it. And again, just the fact that 
we have got a couple witnesses, if you don't mind, at least--if 
they are here, I would ask you--if any of y'all three want to 
participate or get involved--I would ask you to do that. Do you 
all want to add any more to that? This is just my last series 
of questions, and I will pass this on to Mr. Dent.
    Mr. Hickey. Chairman Cuellar, Mike Hickey with Verizon. 
First I want to say that I think Verizon has great confidence 
in Director Paulison and the work of FEMA. They are re-creating 
an agency that has had some challenges and we have got great 
confidence in the direction that they are moving.
    States, I am from New Hampshire, just north of Mr. Bourne's 
home State, and all politics obviously is local. We are a 
strong believer in home rule. And I know that ultimately it is 
local decision makers that make the difference on issues like 
credentialing, and we applaud the efforts on the part of the 
Department to create a national system that can be used, maybe 
customized to Eagle Pass or Pennsylvania.
    But in the meantime, I think that there are probably 
approaches that can be taken, maybe nontraditional approaches 
perhaps with FEMA through its 10 regional offices serving as a 
convener of States within that particular region. For instance, 
Verizon just met with Bill Peterson in Denton, Regional FEMA 
Administrator. And we met his team, a great team. And there 
might be a way of thinking through a regional approach so that 
the States under that FEMA jurisdiction could be convened to 
take a look at best practice.
    For instance, Louisiana, Georgia, Florida have approaches 
to credentialing. They may be very straightforward, very 
simple, and very short term. But to get us over the next season 
or two, that might be one approach we want to consider taking.
    Mr. Cuellar. Yeah. Mr. Bourne, why don't y'all maybe talk 
to Mr. Hickey a bit after this? I don't know if you plan on 
doing that. So I am a big believer in looking at that approach. 
But if you can find some of the best practices, it might be 
that Pennsylvania might be doing a better job than some of the 
other States. I mean, just look at the best practices. But 
again, it is going to be local.
    But I still feel we have to have some sort of common core 
issues that we have got to look at on a national basis.
    Mr. Bourne. That is exactly the approach we are taking, 
sir.
    Mr. Martinez-Fonts. Mr. Chairman, if I could add, as 
someone who has lived on the U.S.-Mexico border for many 
years--and I am not only familiar with Eagle Pass, but really 
when we talk about all this, really a three-layered strategy 
here--there is the local, there is the State and there is the 
Federal. And, again, as the magnitude of the disaster, whether 
it is natural or man-made, increases, you have got to be able 
to kick it up a notch, as they say, so they are ready to move 
in.
    So I think that is what you are asking for. You are asking 
for those protocols to a certain degree to be ready. If it is 
only Eagle Pass, you are going to just call on the fire 
department. If it needs a State, they need to be able to kick 
in. And then when you get a JFO that is set up by FEMA, then 
you have got to make sure that everybody is speaking the same 
language and being able to get aid from the surrounding area 
and everyone is on the same page, as they say.
    Mr. Cuellar. Thanks. The other two witnesses. I am sorry, 
Charlie. And I apologize. Mr. Howard or Mr.----
    Mr. Dinvaut. Yes, Mr. Chairman. Barry Dinvaut. I will be 
glad to help and approach this situation as a small business, 
also having been involved in Katrina in Louisiana. My 
experience in that, I have a great deal of opinion on what 
could be done to help FEMA maybe--another disaster may hit 
Louisiana or the gulf coast that may help them in assisting 
them and preparing something that is much better.
    And just to communicate and work with the organizations 
that support the small business within the regions that need 
their help, let them know. This information can be passed down 
to the small business and the private sector.
    I think that line of communication is blocked. I put out an 
effort. When I evacuated to Baton Rouge, I returned in a few 
days, trying to get into New Orleans to work with FEMA and the 
Corps of Engineers.
    Also, you have to take into consideration what is going to 
be done once the emergency has started. Are we coming back? And 
I came back to see if I could offer any help in the recovery of 
building the levees and so forth.
    So I think the whole thing would revolve around getting the 
information out to the small businesses and the private sector 
what they need, and to see what can be offered to the different 
agencies and so forth.
    Mr. Cuellar. Well, one of the benefits of being a witness 
here is that you will get access to some of the folks here. So 
I would ask both Mr. Dinvaut, Mr. Howard, and Mr. Hickey if you 
all want to sit down with Mr. Bourne. I want to ask you if you 
all can get some of their ideas and follow up at a later time, 
I really would appreciate to get that local input.
    All right. Mr. Dent.
    Mr. Dent. Thanks, Mr. Chairman. And to Mr. Hickey, I just 
had a few quick questions. I want to get your thoughts on some 
issues. In your testimony, you indicated that Verizon has a 
strong relationship essentially with the Department's Private 
Sector Office and the Office of Infrastructure Protection. You 
also suggest that FEMA, which does not have an official private 
sector office must--or at least should have a stronger 
mechanism for private sector outreach and cooperation. Can you 
describe what you believe are FEMA's shortcomings as they 
relate to public-sector outreach?
    And then secondarily, do you believe that FEMA should have 
its own private sector division and that we should have a point 
of contact within FEMA, such as a private sector officer or 
liaison, that would improve this public-private sector 
partnership?
    Mr. Hickey. Mr. Dent, first of all I would say I think 
Verizon has a very good working relationship with FEMA. At the 
ground level we have worked for years from an operational 
standpoint to get the job done when events occur. We are just 
now getting around from a more senior level to meet with the 10 
regional administrators, and FEMA has made themselves very 
accessible on that front.
    I guess my sense is that at the--that really action occurs 
at the local and regional level. To the extent that FEMA has 
the focus and the resources to make itself available on a 
sustained basis, whether it is in Pennsylvania in Region 2--or 
Region 3 rather--or down in Texas, that helps because we then 
have a consistent and a very proactive point of contact with 
that organization.
    I can't speak to the appropriations side of it. But given 
the fact that FEMA has done so much positive work in terms of 
restructuring its organization, to the extent that the private 
sector has consistent solid access at the local level going 
forward, I think that really helps. It helps us as partners, 
and we view FEMA as a good partner, but we can strengthen the 
relationship.
    Mr. Dent. You also mentioned in your testimony, that the 
Federal Government's credentialing ID program, that that was--
that there were obviously some challenges. And you also 
indicated the States and localities are developing their own 
approaches to credentialing.
    I know Mr. Bourne has been talking about that a little bit 
during this hearing. Can you describe the problems that a non-
integrated approach to credentialing amongst various Federal, 
State, and local governments presents to private-sector workers 
during a response to a disaster?
    And maybe Marko Bourne wants to jump in on that at some 
point.
    Mr. Hickey. Two points. First, in response to the 9/11 
attacks in New York, because of the excellent relationships 
that Verizon had with local police and fire, it was quite easy 
with our credentials to get through the barricades and get to 
our key facility at 140 West Street to begin restoration 
immediately. And we actually work with other infrastructure 
providers through our relationships to get folks in to begin 
repair.
    The challenge with an area like the gulf coast is that it 
is so expansive and it crosses so many political jurisdictions, 
it is a challenge. And I will approach it from two standpoints. 
Verizon Wireless has a major presence in the Gulf Coast States. 
We have regional offices, we do a lot of work across bounds. 
And in order to get in quickly, we need to make sure that 
whatever credentials are required we have just as quickly as 
possible.
    I think FEMA, I think DHS in general, certainly the 
national communications system, the White House post-Katrina, 
were absolutely focused on quick restoration of communications 
services. And if we are stymied in terms of getting into 
sites--and I understand why that happens--it puts us further 
behind the eight-ball.
    So where you have a large cross-jurisdictional region like 
the gulf coast, if we can find regional approaches that go down 
to the local level, through political leadership within DHS, 
with the Governors' Associations like SGA, and with the private 
sector, at least for the short term, that would be of help.
    Mr. Dent. Marko, do you want to add anything?
    Mr. Bourne. Yes. If I could just add, part of the challenge 
is certainly that up until a few years ago, nobody even knew 
what credentialing was. So the dialogue that has been going on 
has been very helpful because it didn't exist before.
    The challenge, too, for FEMA is that it is not 
necessarily--we are not in a position where we can make folks 
do these things. But what we can be is the facilitator of the 
standard, that folks can then apply whatever their goals and 
resources to if they are going to create a credentialing 
process for their community, their State, that it follows the 
basic patterns that would be recognizable from jurisdiction to 
jurisdiction. That is going to be critical because obviously, 
you know, this isn't a closed environment where we control all 
of the resources and all of the requirements.
    So the process that we have been taking is providing the 
forum and the dialogues that folks can look at what are the 
common basic principles that can exist in a credentialing 
system, regardless of the community it is serving, and allow 
those communities to understand these are the basic premises, 
and you can build your systems to accommodate those, and then 
anything else you feel is necessary based on the uniqueness of 
the area you serve. That is the challenge. Because ultimately, 
they are in control not only of those emergency scenes, but 
they are responsible for the public health and safety of their 
communities. So they are ultimately going to have the last say 
as to who gets in and who doesn't.
    Mr. Bourne. What we want to try to provide is a forum under 
which everybody at least has a common understanding and can 
work towards a credential that is recognizable regardless of 
the community they go to serve.
    Mr. Dent. And just real quickly, Mr. Hickey. To your 
knowledge, do you think Verizon would face the same 
credentialing problems in New Orleans that it faced during 
Katrina?
    Mr. Hickey. Mr. Dent, I am optimistic that we would not, 
because we--at least in that locale, because we have really 
made an effort, as have our government partners, to get to know 
each other and to be very well aware of what our requirements 
are. With FEMA and with the IT Directorate within the 
Department, there are personnel on the scene. We would continue 
to work with our sector-specific agency, the National 
Communication System.
    And if I think about Katrina and the gulf coast and New 
Orleans specifically, I think we have made much progress in 
terms of getting to know each other, and in an emergency, if 
the official protocol was not established, that we would find, 
you know, ways to get to the sites that we needed to quickly.
    I was remiss earlier in not referencing one organization 
that might be of assistance. This morning there was the first 
meeting of the Critical Infrastructure Partnership Advisory 
Council, CIPAC. It was created by the Department of Homeland 
Security. It brings together partners from 18 critical sectors, 
from water and dams to telecom and food and ag, and every 
other--including State, local, tribe and territorial. It is a 
brand new sector council. And with that new council at a table 
with all of the other infrastructure providers there, the CIPAC 
might be one vehicle to really address the issue of 
credentialing in quick fashion, because all the right players 
are there not just from the private sector, but from government 
as well. That is just a thought.
    Mr. Dent. Thank you.
    Mr. Cuellar. Thank you. There will be some other questions 
that will be submitted, but as you can see, today is one of 
those days, so we're going to go ahead and conclude at this 
time. I want to thank all the witnesses for being here, your 
valuable testimony, and, of course, the Members for the 
questions.
    As I mentioned, the members of the subcommittee may have 
additional questions for the witnesses, and we will ask you to 
respond to them as soon as possible in writing to those 
questions.
    Mr. Cuellar. Hearing no further business, the hearing is 
adjourned. And again, thank you, and have a good day.
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                   Additional Questions and Responses

     Questions submitted by the Honorable Henry Cuellar, Chairman, 
 Subcommittee on Emergency Communications, Preparedness, and Response 
                       for Marko Bourne Responses

    Question 1.: What types of resources and assistance can the private 
sector most effectively bring to bear in the immediate aftermath of a 
disaster and later in the early stages of recovery--what types of 
private sector entities should be involved and when?
    For example, what should be the private sector role in debris 
removal? To what extent would this rely on coordinated action by small, 
local businesses?
    Response: There are many types of resources and opportunities for 
the private sector to assist in the disaster response and recovery 
process, especially long-term recovery. For example governments can 
create pre-negotiated contracts which can provide goods and services 
for disaster response and recovery. Additionally governments can also 
look to the private sector to learn more about what types of 
capabilities and reach that they can employ during a disaster. As with 
any type of planning, these relationships and agreements need to be 
built well in advance of a disaster and most importantly should be 
coordinated on a regular basis through a formalized partnership, forum 
or organization. There are many examples of State and local governments 
who have created public-private partnerships to integrate the private 
sector in emergency response and recovery.
    For example in the State of California, SB 546 authorizes the 
Governor's Office of Emergency Services (OES), in coordination with 
other state and local agencies, to expand existing public/private 
partnerships and to allow greater participation by the private sector 
in governmental emergency management efforts. This legislation 
encourages collaboration between OES and private interests and 
increases integration of available disaster preparedness resources by:
        <bullet> Enabling the integration of private sector activities 
        with governmental emergency preparedness programs, and 
        expanding preparedness beyond government-to government 
        relations;
        <bullet> Encouraging formal relationships between government 
        and the private sector to monitor the status of the important 
        lifelines controlled by the private sector--from food supply to 
        telecommunications to transportation--during disasters, and to 
        focus resources on their restoration when it is essential to 
        the well being of the general public;
        <bullet> Providing a means for government to communicate 
        critical information to business during emergencies so that the 
        citizens of California, who spend much of their day at their 
        jobs, can protect themselves and their families;
        <bullet> Allowing private sector access to government 
        facilities and information systems in order to maximize best 
        practices and systems, and to assist and coordinate with 
        governmental emergency operations; and
        <bullet> Creating the Disaster Resistant Communities Account in 
        the General Fund into which private donations may be deposited.
    This type of public private partnerships are happening across the 
country to better include the private sector in emergency response and 
recovery. FEMA is also helping State and local governments connect with 
private sector resources. Taking debris removal as an example, the 
private sector, made up of many small and large debris removal 
contractors, who can play a primary role in the debris removal process 
when debris removal contracts are competitively bid and appropriately 
procured by state, local, and tribal governments. State, local, and 
tribal governments can undertake pre-disaster debris management 
planning activities and develop debris management plans and pre-qualify 
debris removal contractors or enter into pre-event debris removal 
contracts. To help State and local governments, FEMA has developed for 
State and local governments the Debris Removal Contractor Registry 
(https://asd.fema.gov/inter/nerr/home.htm) to assist State, local, and 
tribal governments identify debris removal contractor resources. This 
information is populated by the private sector. .
    In addition, small and large debris removal contractors also play a 
primary role in the debris removal process when debris removal is 
managed under a mission assignment requested by the state and managed 
by the ESF #3 lead agency, U.S. Army Corps of Engineers.
    The private sector has a large role to play not only to prepare for 
and respond to an emergency, but it is the backbone of the community's 
economy and should be intimately involved in the long-term recovery. It 
is critical for a local business community to work with emergency 
management to ensure that businesses can open as quickly as possible to 
restore commerce and bring back economic vitality to the region. It not 
only is essential for businesses to be open to restore the economy, but 
it is equally important for them to return to be able to deliver goods 
and services to its community. Long term recovery planning should be an 
ongoing part of State and local emergency planning.
    Beyond response and recovery, the private sector has an important 
role to play to prepare its employees, operations and assets for the 
unexpected. The private sector also has an opportunity to also provide 
leadership in community preparedness by utilizing its connection with 
local emergency management and community based organizations like 
Citizen Corps to encourage both citizens and businesses to be better 
prepared. These combined actions can set the stage for greater 
community resiliency.

    Question 2.: How do existing regulatory and statutory structures 
affect the ability to draw on private sector resources and develop 
flexible means of using their capacities?
    For example, after Katrina, Rite-Aid offered to refill 
prescriptions of those who had been evacuated to other states, but when 
it sent in pharmacists to help with in the increased demand, it found 
that in some cases its out-of-state pharmacists could not do so because 
they were not licensed in the state. How can those issues be 
appropriately addressed?
    Response: As the question indicates, there are challenges for 
individuals who are licensed in one state traveling to another state 
and utilizing their professional knowledge without being licensed or 
credentialed in the second state. This is a state regulated matter that 
is generally recognized. FEMA has been encouraging states to address 
this issue in a fashion that will allow more qualified individuals to 
come to affected states to help during emergencies and to permit 
private sector resources to be used during emergencies.
    Current licensure regulations may impede multi-state practice of 
pharmacists and other licensed healthcare providers. The Emergency 
Management Assistance Compact, adopted by all 50 states, the District 
of Columbia, Puerto Rico, the Virgin Islands, and Guam, enables health 
care professionals licensed and/or credentialed in participating states 
to render assistance when the governor of an affected state declares an 
emergency or disaster and requests aid from a participating state 
pursuant to the compact, although the Compact's reference to state 
officers and employees may make it difficult for states to exchange 
private sector health care professionals. Enabling licensed providers 
to practice nationwide in the event of a disaster or emergency 
situation could be beneficial in the aftermath of a disaster. Mutual 
state licensure is a potential solution.
    The Department of Health and Human Services administers the 
Emergency System for Advanced Registration of Volunteer Health 
Professionals (ESAR-VHP) program, which supports the development of a 
national system of State-owned and operated systems to register and 
verify the licenses and credentials of health professional volunteers 
in advance of an emergency. While state ESAR-VHP systems do not solve 
the problem of enabling licensed providers to practice across state 
lines, the registry of interested health care volunteers and real-time 
licensing and credentialing verification information these systems 
provide should facilitate the use of health care professionals 
intrastate and, in cases where states have a mechanism in place to 
allow out-of-state health professionals to practice, across state 
lines.
    Given that many of the potential impediments to involvement of 
private sector resources in disaster response and recovery are state or 
local laws, regulations, or licensing issues, the best way to avoid or 
reduce this problem is for states and localities to incorporate these 
issues into their disaster planning and to the extent possible, 
establish waivers or other systems in advance to reduce anticipated 
impediments.

    Question 3.: It is necessary to identify the roles and 
responsibilities and associated tasks that are appropriate and 
necessary for disasters of different types and magnitudes--e.g., 
providing food, ice, water, prescriptions, pet care, temporary housing, 
etc.
    Which of these roles, responsibilities are inherently governmental 
(e.g., law enforcement and public safety) and which can be shared with 
nongovernmental organizations?
    To what extent does the revised National Response Plan consider 
roles and responsibilities of nonprofits and the private sector in 
preparedness and respone for major disasters?
    Response: State, territory, and tribal governments have the primary 
responsibility for the public health and welfare of their citizens, 
including law enforcement, fire, medical, emergency management, public 
works and environmental response. However, many of these 
responsibilities and associated tasks can be shared with 
nongovernmental organizations (NGOs). NGOs serve a vital role in 
providing an effective response by mitigating potential risks and 
performing essential service missions within communities in times of 
need. These services bolster and support government efforts at all 
levels. Examples of services that may be provided by NGOs include:
    <bullet> mass sheltering,
    <bullet> supplying food and clothing,
    <bullet> counseling services,
    <bullet> training and managing volunteer resources,
    <bullet> caring for displaced pets and service animals,
    <bullet> identifying those whose needs have not been met and 
coordinating the provision of assistance and,
    <bullet> assisting with post-emergency cleanup.
    In fact, some major NGOs have been officially designated as support 
elements to national response capabilities. The American Red Cross, for 
example, is a supporting agency to the National Response Plan's (NRP) 
Emergency Support Function (ESF) #6 Mass Care, Housing, and Human 
Services; and, the American Humane Society helps care for displaced 
pets and service animals.
    NGOs are also encouraged to develop contingency plans and 
Continuity of Operations Plans (COOP) and to work with state and local 
planners to ensure that their plans are consistent with pertinent 
community, state and tribal plans, the National Incident Management 
System and the NRP.
    To what extent does the revised National Response Plan consider 
roles and responsibilities of nonprofits and the private sector in 
preparedness and response for major disasters?
    Response: The process of revising the NRP is nearing completion, 
following extensive input from representatives of all sectors of our 
society, including nonprofit and private sector organizations. The 
final approved revision will address and identify potential roles and 
responsibilities of nonprofits and the private sector in all phases of 
emergency management.
    The role of the private sector as owners and operators of much of 
our nation's critical infrastructure will be vital in maintaining and 
restoring essential services during and following disasters. The 
revised NRP will focus on the need to strengthen partnerships between 
all levels of government, the private sector and NGOs in enhancing the 
nation's readiness profile.
    The revised NRP will also recognize that the private sector 
supports the national incident management efforts by performing 
vulnerability assessments, developing emergency response and business 
continuity plans, enhancing overall readiness, implementing appropriate 
prevention and protection programs, and donating goods and services or 
providing them through mutual aid agreement, contractual arrangement, 
or government purchases.
    NGOs also serve an important role in community preparedness, 
coordinating resources, and marshalling community recovery efforts. 
NGOs support government incident coordination efforts by sending 
representatives to participate in State and local exercises and 
Emergency Operations Centers (EOCs). When incidents are of such 
magnitude that a Joint Field Office (JFO) is established, NGOs and 
other private-sector interests may participate in the JFO when 
appropriate.
    There are two overarching organizations particularly instrumental 
in organizing NGO participation in incident preparedness and response: 
the National Voluntary Organizations Active in Disasters (NVOAD), a 
consortium of more than 30 national disaster relief organizations, and 
Citizen Corps, a DHS-administered, community-level program that brings 
government and nongovernmental groups together and coordinates the 
emergency preparedness and response activities of community members.

    Question 4.: There have been calls for increased participation of 
the private sector in emergency operations centers so that in times of 
crisis, government officials can gain a business perspective and also 
have a liaison identified for outreach to the large community.
    What is the Department doing to ensure private sector participation 
in emergency operations center? What protocols and standards must be 
put in place before an initiative like this moves forward?
    Response: For years, many State and local emergency operations 
centers have had members of the private sector integrated as full 
partners in emergency response and recovery, especially in the utility 
and telecommunications industries. Since 9/11 States and localities 
have increased their ability to include the private sector to also 
include non-critical infrastructure representatives.
    At the Regional level FEMA has supported State and local 
coordination with the private sector. For example in FEMA Region 2, 
FEMA administered a grant to New York City to support private sector 
integration into New York City's emergency and crisis management 
through a nonprofit business partnership, BNET. This organization was 
created as a result of a 1997-1998 study titled the Joint Loss 
Reduction Partnership (JLRP), funded by FEMA and conducted by the New 
York State Emergency Management Office in partnership with 
representatives from NYS businesses. The goal of the JLRP was to study 
and determine the needs of private-sector businesses following a 
serious emergency or disaster. The findings of the study identified a 
need for closer collaboration between the public and private sector, 
but most importantly a process for allowing critical business personnel 
to re enter their place of business within defined restricted areas to 
begin business recovery activities.
    The Corporate Emergency Access System (CEAS) program was created as 
an outgrowth of the recommendations of the JLRP. CEAS uses a 'critical 
employee access card' credentialing system to mitigate the economic 
loss incurred through unforeseen emergencies where access to the 
workplace is restricted. To learn more about CEAS: https://ceas.com/
ceas.psp.
    New York City represents many best practices in public private 
partnerships with the business community. Many other cities and States 
have also created similar systems such as ChicagoFIRST and Florida's 
Office of Emergency Management has formally established Emergency 
Support Function (ESF) 18 ``Business, Industry and Economic 
Stabilization." which focuses on partnership building with businesses 
throughout many aspects of emergency management.
    Each State and locality has its own priorities and abilities to 
incorporate the private sector into its incident management planning. 
Just like New York City, many States and localities for years have 
included the private sector in their EOCs. It is a State and local 
responsibility to coordinate their priorities and make determinations 
on private sector representation and coordination during disaster 
response and recovery.
    The Department is taking a proactive role in private sector 
coordination by having federal private sector and infrastructure 
liaisons to work with the private sector during an incident of national 
significance. Through the Office of Infrastructure Protection, the 
Department provides Infrastructure Liaisons to support and liaison to 
the 17 critical infrastructure and key resources sectors. These 
representatives are located that the national level through FEMA's 
National Response Coordination Center and the Office of Infrastructure 
Protections' National Infrastructure Coordination Center. To supplement 
this coordination during an incident, the Private Sector Office 
provides Private Sector Liaisons works alongside the Office of 
Infrastructure Protection's Infrastructure Liaisons both at FEMA's NRCC 
and the Joint Field Office to assist non-Critical Infrastructure 
industry to specifically provide public information and donation and 
resource management support. The protocols and processes of this 
coordination are currently being developed and are being raised for 
inclusion into the revised National Response Plan.

    Question 5.: The private sector needs to understand NIMS, and more 
importantly needs to exercise and train in the areas of which they are 
expected to play a role.
    To what extent is the Department working with the private sector 
and states and localities to ensure and encourage private sector 
involvement in these types of exercises?
    Response: The Department has actively encouraged private sector 
involvement in these exercises.
    The Training Branch of the Incident Management Systems Division, 
National Integration Center, created and implemented a NIMS 
Implementation Workshop for the Private Sector (a one-time event held 
in the Summer of FY06). The intent of this workshop was to obtain 
feedback from the various elements of the Private Sector on how well 
the implementation process has proceeded within their respective 
organizations. FEMA will continue to capture comments from the private 
sector (as well as from non governmental and volunteer organizations) 
and review them to help us revise our recommendations on the policies, 
plans and procedures we use as guidance to other Private Sector 
entities. It is hoped that the outcome will strengthen the Private 
Sector's ability to align their incident response capabilities with 
NIMS.
    The following programs provide examples where the Department has 
encouraged private sector involvement in exercises:

Homeland Security Exercise and Evaluation Program (HSEEP)
    The Homeland Security Exercise and Evaluation Program (HSEEP) is a 
capabilities and performance-based exercise program that provides a 
standardized policy, methodology, and language for designing, 
developing, conducting, and evaluating all exercises. HSEEP recognizes 
the necessity and importance of private sector exercise involvement and 
encourages participation of private sector partners in all aspects of 
preparedness exercises. To ensure HSEEP methodology and guidance are 
properly implemented and applied to Federal, state, and local exercise 
activities, the National Exercise Division (NED) emphasizes private 
sector participation in all programmatic initiatives, as well as 
supporting HSEEP implementation with Subject Matter Experts SME and 
technical assistance and online resources. The NED works closely with 
the DHS Private Sector Office and Office of Infrastructure Protection 
through the HSEEP Steering Committee and HSEEP Policy and Subcommittee 
to develop exercise policies and guidance that maximizes private sector 
participation in national level as well as regional exercises. The NED 
also coordinates national level exercises and directly engages private 
sector partners in those planning and execution activities as well. In 
the Top Officials (TOPOFF) federal exercise series, the NED is 
coordinating with the DHS Private Sector Office and Office of 
Infrastructure Protection to increase the level of private sector 
participation in this year's TOPOFF 4 exercise. Last year's TOPOFF 3 
exercise involved more than 5,000 members of the private sector. The 
NED recognizes and values its private sector partnerships and is 
resolved in increasing their role in future exercise initiatives.

Emergency Management Institute (EMI)
    The Emergency Management Institute (EMI) includes representatives 
of private sector organizations such as students in its exercise-based 
courses and other courses where those organizations are part of the 
integrated state, tribal and local response for emergencies and 
disasters. In addition, the general public, including private sector 
organizations, may take EMI's independent study courses at no charge 
which includes a menu of over 60 courses. However, EMI is not resourced 
to provide training for the private sector on a large scale.

Center for Domestic Preparedness (CDP)
    The Center for Domestic Preparedness' (CDP) primary mission is to 
provide homeland security training to state and local emergency 
responders across the Nation. The private sector has regularly 
approached the CDP leadership requesting training for their response 
teams. At present, the CDP is training private sector responders on a 
``space available'' basis, which translates to less than 4-5 private 
sector student seats per class. Currently, the CDP does not have 
reimbursement authority to accept funds associated with the cost of 
training. The CDP leadership has proposed enabling language that would 
give it permanent authorization to allow reimbursement for this one-of-
a-kind training. This authorization would provide the private and 
public sectors the opportunity to train for response activities that 
are required in an incident in their respective community/jurisdiction.

     Questions submitted by the Honorable Henry Cuellar, Chairman, 
 Subcommittee on Emergency Communications, Preparedness, and Response 
                    for J. Michael Hickey Responses

    Question 1.: Regarding the U.S. Chamber of Commerce's pandemic 
preparedness initiative:
    Is the private sector taking pandemic preparedness seriously?
    Yes, the Chamber and its members appreciate pandemic influenza 
needs to be on the minds of all businesses. We have heard constantly 
that it is not an ``if'' but a ``when'' scenario. Like hurricanes, 
tornadoes, and earthquakes, pandemics happen. We can't stop pandemic 
influenza but the US Chamber of Commerce is encouraging preparedness 
for an influenza pandemic within the business community.

    What results are you seeing out of this preparedness effort?
    Business owners and leaders are becoming more knowledgeable about 
the risks associated with the threat of an influenza pandemic and, in 
turn, adequately prepared for the possibility of a pandemic that could 
have both significant social and economic costs.
    Businesses are preparing their education programs to clarify their 
policies during an avian flu outbreak and using publicly available 
information to educate their employees on the need to take relatively 
simple precautions to limit exposure to a flu outbreak.
    Many businesses, particularly large multinational corporations, 
have established pandemic planning committees and have altered their 
business continuity plans.
    Of primary importance to a business, is having an adequate 
workforce that can be drawn upon, given the prediction that a large 
percentage of workers may be unable to fulfill their responsibilities 
over the span of a pandemic.
    Given that forewarning, employers are doing a number of things to 
ensure worker availability and productivity. Among these is making the 
investment to support working from home or other remote sites and 
developing worker training programs that emphasize cross-training, 
replacement training, and recalling and training retirees.
    Some companies are establishing additional supply and delivery 
chain alternatives. Some businesses are also ensuring that their third 
party suppliers are also prepared for the special circumstances brought 
about by the pandemic and have necessary contingencies in place.

    Can such efforts be applied towards other possible natural or man-
made disasters that would affect business operations?
    If a business is prepared to deal with pandemic influenza, it's 
better able to handle other events, whether a biological attack or a 
natural disaster. Business planning and continuity plans can be 
adjusted for the circumstances. It's also very effective to have a team 
that is already built, and to have regular communication with operating 
groups. Whether it's a pandemic influenza or whether it's another type 
of disaster, it's very important to have a team in place.

    Question 2.: Re: recent administrative and legislative 
reorganizations at DHS and their effect on emergency preparedness and 
response coordination:
    Do these recent reorganizations benefit cooperation and 
communication among all levels of government, the private sector and 
the public?
    Policymakers have spent considerable energy in organizational and 
functional responsibilities at the Department of Homeland Security. 
While such initiatives may help clarify expectations for stronger 
outreach and coordination in emergency preparedness and response, 
actual outcomes will depend on more effective joint implementation by 
government agencies and the private sector.

For instance:
        <bullet> Policymakers have recognized that meaningful emergency 
        preparedness and response measures must be shaped and managed 
        at regional, state and local levels. As a result, government 
        resources have been devoted to standing up Department programs 
        at the regional level in support of Joint Field Office 
        requirements. To ensure stronger links between government and 
        private sector interests, agencies like FEMA and the DHS 
        National Protection Programs Directorate must establish 
        stronger state and local private sector outreach and 
        coordination capability to encourage and sustain private sector 
        participation over the long term.
        <bullet> In Homeland Security Presidential Directive 5 (HSPD-
        5), the President directed the establishment of the National 
        Incident Management System (NIMS) and the National Response 
        Plan to align Federal coordination capabilities and resources 
        into a unified, self-disciplined and all-hazards approach to 
        domestic incident management. These initiatives will fall short 
        if they do not fully recognize and integrate private sector 
        roles and capabilities into emergency preparedness and response 
        frameworks.
    Meaningful business and government partnerships are created not 
just through dialogue and planning, but by testing operational 
readiness and exercising together. The early insertion of private 
sector ideas and expertise in training exercises is essential in order 
to bring greater meaning to such programs--whether at the local and 
regional level or in the development of national exercises such as 
TOPOFF 4.
        <bullet> To ensure a higher level of joint government/private 
        sector preparedness and response, sound practice must be 
        adopted and implemented where it matters most. On initiatives 
        ranging credentialing to emergency wireless protocols, public 
        and private sectors must be prove to be more effective in 
        seizing upon good ideas and programs and finding ways of 
        getting such programs implemented ``on the ground.''
    The Department of Homeland Security has been effective in 
establishing a framework for the eighteen critical infrastructure 
sectors to advance emergency preparedness and response measures and to 
coordinate within sectors, across sectors and with government partners. 
The 2006 National Infrastructure Protection Plan, resulting from 
Homeland Security Presidential Directive 7. HSPD-7 focused on the 
identification, prioritization and protection of the nation's critical 
assets. It required the development of the National Infrastructure 
Protection Plan and corresponding Sector Specific Plans. Perhaps most 
significantly, the NIPP encouraged the establishment of sector 
coordinating councils. In so doing, it brought greater sector diversity 
to the table and significantly advanced the institutional capacity of 
sectors to formally and proactively address cross-sector dependencies. 
Cross-sector initiatives have been advanced by the establishment of the 
Partnership for Critical Infrastructure Security (PCIS.) Its mission 
addresses critical infrastructure matters from prevention, planning, 
and preparedness to business continuity, mitigation, response and 
recovery. This forum provides "real opportunity for discussion, 
cooperation and successful execution of programs by government and 
industry partners. Measures to advance government and private sector 
coordination were further advanced when Secretary established the 
Critical Infrastructure Partnership Advisory Council (CIPAC) in 2006. 
This Council brings together private sector representatives and sector 
specific agencies to the same table to advance coordination in 
emergency preparedness and response.

Question 3.: Re: Participation in Ready Business Summits:
    The Ready Business Summit was a pilot initiative with DHS and the 
U.S. Chamber of Commerce to increase engagement of business owners and 
operators on the importance of business continuity planning, emergency 
response coordination and pandemic flu preparedness. The Ready Business 
Summit is designed primarily for small and medium size companies. As a 
result Verizon has not participated directly. The first Ready Business 
event was held with the City of Charlotte and the Charlotte Chamber of 
Commerce. The Summit provided the business community a to engage 
Charlotte's Office of Emergency Management and its local first 
responder community as well as federal state and local health officials 
regarding pandemic flu and to highlight best practices in Charlotte's 
business community on the importance of business continuity of both 
small and large businesses. DHS and the Chamber plan to hold additional 
Ready Business Summits around the country.

 QuestionS from the Honorable Henry Cuellar, chairman, Subcommittee on 
          Emergency Communications, Preparedness, and Response

                     Responses from John L. Howard

    Mr. Howard, as you stated in your testimony, the Business 
Roundtable launched its Partnership for Disaster Response in part as a 
way to address the need to better coordinate the generosity and 
willingness to assist the public, by the private Sector.
        <bullet> How has the roundtable worked to draw upon and 
        organize the resource capability of its members? And 
        specifically, how has Grainger worked with the Department and 
        state and local authorities to provide services?
        <bullet> Did you meet personally with federal, state and local 
        officials?
        <bullet> Do you have pre-negotiated contracts in place?
    The Partnership has worked to draw upon and organize the resource 
of its industry membership in an effort to create a more coordinated 
response to disasters. Companies involved in the Partnership are 
working closely to harness their expertise to create a more proactive 
approach in how the business community can help our nation prepare for, 
respond to and recover from disasters. The Business Roundtable strongly 
believes in the importance of a coordinated solution to assist 
emergency response, to mitigate the suffering of communities affected 
by a disaster and to support economic recovery.

For example, the Partnership has:
        <bullet> Developed an emergency protocol for how the private 
        sector will communicate with the government and relief agencies 
        immediately following a disaster.
        <bullet> Launched a web site, www.respondtodisaster.org, the 
        first clearinghouse of information on disaster preparedness and 
        response, to help businesses develop more comprehensive 
        disaster response programs.
        <bullet> Organized a Business Response Team comprised of 
        representatives from several industries, including 
        Telecommunications, Manufacturing/Chemical, Retail/Supplies, 
        Insurance, Health/Medical, It, Financial Services, 
        Transportation/Logistics, Energy/gas and Electric to gather and 
        communicate needs to the Partnership, and to determine which 
        corporate resources are needed during the response phase of a 
        disaster. To facilitate communications, the Partnership also 
        launched a secure web site that enables members to easily 
        communicate information and obstacles confronting the general 
        business community and specific industry sectors in real-time. 
        These challenges can then be shared with federal and local 
        government representatives to speed response and recovery 
        activities.
        <bullet> Developed new educational resources addressing all 
        phases of disaster--preparation, response and recovery--to help 
        a company's business continuity, security, communications, 
        human resources and all operating departments refine the 
        company's disaster plan. The subject areas include:
        1. Top Ten Myths of Disaster Relief--aims to identify and 
        correct some of the most common misconceptions about disaster 
        response.
        2. Do's and Don'ts of Effective Giving provides employees with 
        accurate information about how they can best contribute after a 
        disaster.
        3. How Can My Company Help?--provides a guide for Country 
        Managers in responding to natural disasters
        4. Family Preparedness Guide--intended for all employees to 
        educate them disaster preparedness and encourage them to take 
        specific actions
        5. Human Resource Guide on Benefits and Financial Issues--
        designed for HR leaders to help them support employees whose 
        lives have been affected by a disaster
        6. Protecting Your Business provides a guide for security, real 
        estate, tax and legal staff on issues to consider when sharing 
        office space after a disaster
        7. Rebuilding Communities--provides advice for philanthropy and 
        community relations leaders to help set priorities in 
        contributing to long-term recovery efforts
    The Business Roundtable's efforts have involved ongoing discussions 
addressing strategy and particular challenges with federal and local 
authorities.
    As to your question related to W.W. Grainger, Inc, representatives 
of our company have met and discussed our commitment with 
representatives of the Department of Homeland Security and FEMA. Just 
as important, Grainger's extensive field operations provide the 
opportunity for its employees throughout the country to pursue similar 
discussions and coordination with state and local government 
representatives. The vast majority of products that we supply during an 
emergency are available for purchase as a result of previously awarded 
competitive contracts.

    2. The prioritization of product distribution is an important point 
often missed in times of emergency.
        <bullet> From your testimony we understand that requests from 
        FEMA, cities and first responders are given priority -does this 
        mean that one of your business customers will have to get in 
        the back of the line for assistance and goods needed to get 
        back on line?
        <bullet> While this is understood in times of great crisis, to 
        what extent is Grainger notifying its customers of a possible 
        disruption and working with them to identify what is needed to 
        keep them operations for the first 36 to 48 hours post event?
    In disaster scenarios, Grainger makes every effort to give first 
priority to Federal, State and local agencies and to first responders. 
Prioritizing FEMA and first responder item demands may in certain 
limited instances cause temporary product shortages for commercial 
customers. However, our pre-planning and historic analysis anticipates 
this challenge. Given the inventory redundancy within Grainger's supply 
chain, the pre-identificationlre-stocking of sensitive items, our re-
supply relationships with our main suppliers and our capabilities to 
source product from multiple suppliers, few shortages are likely to 
extend beyond 48 hours.
    Within the first 36 to 48 hour time frame Store and Sales 
management are being continuously updated by Grainger's Supply Chain 
management on estimated delivery of product and in turn store and sales 
employees are communicating directly with customers in the disaster 
area. Customer needs in this time frame are being captured via face to 
face customer contact at our local branches and the monitoring of 
inventory levels feed directly into and are acted upon by Grainger's 
supply chain systems and processes.

    3. How does Grainger research the needs of customers, plan to 
secure the supply chain and work to pre-position trailers of products 
that you and the affected community may need? Have you shared your best 
practices with the Department?
    Grainger has leveraged its unique position as a long-standing, 
national broad-line distributor with a robust local footprint to 
understand the ``on the ground'' product needs in an extensive array of 
emergency situations. By virtue of our local presence throughout the 
nation, we have not only learned from those historical customer demands 
in the first hours of a particular type of event but we have also 
learned from our own local employees living through the emergency 
themselves. Our research as to what, when, where and how much product 
is needed comes from our long history and day in day out experiences 
dealing with emergency need. We will continue to share our experience 
and practices with the Department as part of the Roundtable's 
commitment to emergency response.

                                 <all>

</pre></body></html>
